<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:00 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Blunt, Moran, 
Hoeven, Boozman, Durbin, Leahy, Tester, Udall, Schatz, and 
Baldwin.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. DR. HEATHER WILSON, SECRETARY


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. The committee will come to order. This 
morning I am pleased to welcome Secretary Wilson and General 
Goldfein to review the Air Force budget request for 2020. 
Secretary Wilson congratulations on being named the sole 
finalist, in other words, the next President of the University 
of Texas, El Paso. We appreciate your participation here today. 
We also appreciate your service as a congressman, as Rhode 
Scholar, everything that goes with it. And you have had the 
complete package and you are going to continue doing things, I 
know, for the country. We will hear from you again in other 
capacities.
    The Air Force budget request for 2020 is $165.6 billion, an 
increase of $9.8 billion over the amounts enacted in 2019. And 
while we are here today to focus on the budget request, we are 
also interested in hearing about how the Air Force is executing 
the 2019 funds, which we thought were pretty robust, but 
needed.
    The National Defense Strategy Commission recently stated 
that the Air Force will be at the forefront of the next 
conflict regardless of where it occurs or which adversary it 
features. That is a long time. I think they are correct in that 
assessment. The country expects that the Air Force will invest 
in a lethal force that will be able to confront our adversaries 
of the future, and it cannot fail to maintain a ready force 
today. This committee will scrutinize the budget request that 
we received to ensure that it supports the more than 20,000 
airman deployed around the globe in 180 locations, and that it 
adequately addresses the long-term challenges posed to us by 
China and Russia.
    Today we look forward to understanding how your 2020 budget 
request reflects the priorities, your priorities, to include 
the creation of the space force, the addition of operational 
squadrons, and what types of aircraft comprise those squadrons, 
the modernization of our nuclear capabilities, and further 
development of hypersonic weapons. Secretary Wilson, General, 
we appreciate your service to the country.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    The Subcommittee will come to order.
    This morning, I am pleased to welcome Secretary Wilson and General 
Goldfein to review the Air Force budget request for fiscal year 2020.
    Secretary Wilson, congratulations on being named the sole finalist 
to become the next President of the University of Texas at El Paso. We 
appreciate your participation here today and your continued service 
over the next months to ensure a smooth transition.
    The Air Force budget request for fiscal year 2020 of $165.6 billion 
is an increase of about $9.8 billion over the amounts recently enacted. 
While we are here to focus on this budget request, we are also 
interested in hearing about how the Air Force is executing fiscal year 
2019 funds, which were provided on time.
    The National Defense Strategy Commission recently stated that the 
Air Force will be at the forefront of the next conflict regardless of 
where it occurs or which adversary it features. I think they are 
correct in that assessment.
    The country expects that the Air Force will invest in a lethal 
force that will be able to confront our adversaries of the future, and 
it cannot fail to maintain a ready force today.
    This Committee will scrutinize the budget request that we have 
received to ensure that it supports the more than 21,000 Airmen 
deployed around the globe at 180 locations, and that it adequately 
addresses the long-term challenges posed by China and Russia.
    We look forward to understanding how your fiscal year 2020 budget 
request reflects your priorities and initiatives to include the 
creation of the Space Force, the addition of operational squadrons and 
what types of aircraft comprise those squadrons, the modernization of 
our nuclear capabilities, and further development of hypersonic 
weapons.
    Secretary Wilson and General Goldfein, we appreciate your service 
and look forward to hearing how your budget balances all of these 
important priorities.

    Senator Shelby. Now I turn to the Vice Chairman, Senator 
Durbin, for his opening remarks. Thank you.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks a lot, Mr. Chairman, and Madam 
Secretary, and General Goldfein. Thank you for being with us 
today. And I just learned as I sat down here about the next 
step in your career. I wish you the very best, whatever your 
final decision may be. You brought real skill and dedication to 
your job as Secretary of the Air Force, and you have overcome 
whatever is left of House careers that both of us brought to 
our next endeavor and made the very, very best of it.
    Let me tell you that I believe that we are facing a 
critical budget cycle. We do not want to return to 
sequestration. I do not believe that is healthy for this 
Nation, certainly not for our defense. But I also have to 
quickly add that I do not believe dreaming up $174 billion in 
OCO (Overseas Contingency Operations) funds is the answer. I 
believe that that is short-sighted, both in terms of our 
deficit and in terms of our budgeting.
    If there is someone in the Administration who believes that 
we can dramatically short-change non-defense spending and look 
the other way at $174 billion OCO, they just did not look at 
the results in the last election. We need a bipartisan answer 
to the future of this budget process. One that serves our 
Nation and one that serves our National Defense. I will not go 
into a long riff about the wall and what it might involve. I am 
sure that will be discussed at length in many other different 
places. I would also raise the question about the whole concept 
of the space force. This to me is an idea that needs to be 
thoroughly vetted and carefully reviewed before we stand up 
another branch of our military. Is this in the best interest of 
America's National Defense? Is it going to necessarily involve 
an investment in bureaucracy which comes with it, which may be 
uncontrollable?
    The late John McCain spoke of many times about the 
possibility that we are putting more people in the Pentagon 
than we are in field. We need to make sure that whatever we are 
doing, we are consciously avoiding overspending where it is 
unnecessary, and consciously spending taxpayers' dollars in the 
name of National Defense in a thoughtful way.
    So, I look forward to that conversation. Thank you for 
being here.
    Senator Shelby. Secretary Wilson, yours and the General's 
opening statement will be made part of the record in its 
entirety. You proceed as you wish. Welcome again.

              SUMMARY STATEMENT OF HON. DR. HEATHER WILSON

    Secretary Wilson. Thank you, Mr. Chairman. With the opening 
statement in the record, I will just summarize a few points, if 
I might.
    The Air Force budget proposal that we have put forward is 
driven by the National Defense Strategy and the priority 
mission set out in that strategy. I would highlight probably 
three major things for you and then answer any questions that 
you might have for us. The first is that this budget focuses on 
building a more lethal and ready Air Force. We are more ready 
for combat operations today than we were 2 years ago. Readiness 
first and foremost is about people and their training. We have 
closed the gap on the maintainer shortage that we faced 2 years 
ago when we were 4,000 maintainers short, and now we have to 
season those young Airmen and make them into masters of their 
craft.
    The fiscal year 2020 budget continues the steady increase 
in air strength, with an addition of 4,400 personnel. It also 
adds in funds to hire more civilians, particularly focused on 
depot level maintenance, to make sure that our equipment is in 
condition to be able to fight. And we have stopped the decline 
in the number of pilots and increased funds for the training of 
those pilots. With respect to readiness of our equipment, we 
are modernizing across the board with the F-35, the KC-46, the 
B-21 bomber, the nuclear deterrent, the T-X trainer, and of 
course our helicopters. So, we have modernization going on 
across the board. It has to be cost-effective modernization, 
but tomorrow's modernization, or today's modernization results 
in tomorrow's improvements in readiness.
    So, the first thing, again, we are doing is building that 
more lethal and ready force. We are also trying to fill 
tomorrow's Air Force faster and smarter, taking advantage of 
the authorities that the Congress has given us since 2016 and 
2017 to improve Air Force acquisition. We cannot win this 
contest against near-peer adversary with an acquisition system 
from the cold war. And so, we are speeding up the way in which 
we do things. Delegating authorities to the services works. We 
have more control over our major programs, and we are taking 
advantage of the new authorities to prototype an experiment, 
which you have given us. Last week, we had our inaugural pitch 
day in New York City. We did this both to engage small, 
innovative companies, but also to change the way the Air Force 
does business with those companies. You know, we ended up 
contracting in a single day with 51 companies. The average time 
for contract award was 15 minutes and the length of the 
contract was one page. We are fielding tomorrow's Air Force 
faster and smarter.
    The third thing I would highlight is that our fiscal year 
2020 budget builds on our advances made in fiscal year 2019, 
and further accelerates our ability to operate in space. There 
is a 17 percent increase in space funding over fiscal year 2019 
for about $14 billion on classified Space Programs. The 
Department of Defense recently submitted legislation to 
establish the Space Force as a new service within the 
Department of the Air Force. This proposal capitalizes on the 
Air Force being the best in the world in space, and given the 
new era of strategic competition, it is a move that would 
posture us for the future.
    In closing, this budget includes funds with an emergency 
clause for Tyndall Air Force Base, and I would ask that, Mr. 
Chairman, I know you are looking at and trying to craft a 
supplemental to deal with some of these terrible storms that 
have hit the Southeastern part of the United States. We look 
forward to working with you on that because that supplemental 
will be vital to recovery of Tyndall Air Force Base.
    Senator Shelby. You say Tyndall?
    Secretary Wilson. Yes, sir. Tyndall Air Force Base 
recovery. And finally, I thank all of you for the certainty 
that you have provided us in fiscal year 2019. We started out 
this year with a budget at the beginning of the year, and at 
the end of the first quarter, we looked at the financials and 
we had executed about a quarter of our program in the first 
quarter of the year. Sequestration would erase all of the gains 
that we have made together over these last 3 years, and we look 
forward to working with all of you to make sure that that does 
not happen. The Air Force will compete, deter, and win. That is 
our job, and we look forward to working with you to make sure 
that that continues to be the way the Air Force does business.
    Thank you, sir.
    Senator Shelby. General Goldfein.
STATEMENT OF GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF
    General Goldfein. Chairman Shelby, Ranking Member Durbin, 
and distinguished members of the committee. What an honor it is 
to, once again, represent your Airmen, 685,000 Active Guard 
Reserve and civilians who stand the watch and provide top cover 
for the Nation and our joint and allied teammates.
    This hearing is the first public gathering since Secretary 
Wilson announced her pending departure from the Air Force, and 
I want to say publicly on behalf of all Airmen and their 
families, what an honor it has been to work with her every day 
to make our Air Force more lethal and more ready. These past 2 
years have been the most rewarding of my career, and this 
budget reflects the culmination of our work together to build 
the Air Force we need to compete, to deter, and if deterrent 
fails, to fight and win. And I want to state for the record 
that we are a better Air Force because of the leadership and 
the vision of our Secretary, Dr. Heather Wilson.
    Chairman, I went to war for the first time as a young 
Captain flying F-16s out of Shaw Air Force Base in South 
Carolina, just a few days after Saddam Hussein invaded his 
neighbor in Kuwait. We were the second squadron of 34 that 
deployed forward out of 134 fighter squadrons in the inventory. 
At that time, we had 401 operational squadrons and 945,000 
Active Guard Reserve and civilian Airmen in the Air Force that 
formed the fist the Nation needed. 401 operational squadrons to 
defeat a middleweight, non-nuclear power who threatened his 
neighbor in the region that posed little threat to our homeland 
and our way of life. Today, we have 312 operational squadrons, 
down from 401. We have just 55 squadrons of Fighters, down from 
134. And we have 685,000 Airmen, down from 945,000. We are not 
the Air Force of Desert Storm, yet it is articulate in the 
National Defense Strategy, today we face a significantly 
different global security environment. China and Russia are 
nuclear powers, and Russia continues to violate treaties as it 
rebuilds and grows its nuclear capacity and capability.
    When my predecessor, General Tony McPeak, was the Chief in 
1991, he and his fellow joint Chiefs were focused on supporting 
a single Combatant Commander, Joe Norman Schwarzkopf the 
Commander of U.S. Central Command. Today, should deterrence 
fail, and we find ourselves defending our Nation against a 
major power, as the Chief, Secretary Wilson and I will be 
simultaneously supporting at least three Combatant Commanders 
who will be simultaneously asking for air, space and cyber 
power. First Geographic Combatant Commander will request forces 
to support his campaign, which may include back field for the 
fighters, tankers, and command-and-control forces he will place 
on nuclear alert given his role as the Supreme Allied Commander 
of a Nuclear Alliance. The next call I expect to receive will 
be from U.S. Strategic Command and he will tell me how many 
bombers, tankers, and command control forces he will need to 
execute his nuclear deterrence plan for protecting not only the 
homeland, but also our allies and partners. And the third call 
will be from Northern Command, which will tell me how many 
fighters, tankers, ISR, and C-2 aircraft he will need to 
execute his plan to defend the homeland. And the Air Force will 
be asked to support these missions simultaneously, not 
sequentially, while at the same time maintaining a global 
presence to deter any rogue Nation who might take advantage of 
our situation as we simultaneously maintain campaign pressure 
on violent extremism.
    This is the stark difference between fighting a 
middleweight rogue nation without nuclear weapons versus 
competing, deterring, and if deterrence fails, fighting and 
winning a peer fight. It is why Secretary Wilson and I continue 
to articulate in every forum that the Air Force is too small 
for what the Nation is asking us to do. And it is why as you 
said Chairman, the National Defense Strategy Commission stated, 
regardless of where the next conflict occurs or which adversary 
features, the Air Force will be at the forefront. With your 
support, this budget request will continue to rebuild the 
readiness and lethality of the Air Force, which you supported 
last year with an on-time appropriation following a damaging 
sequester and years of budget uncertainty, all while the Air 
Force executed continuous combat operations.
    Sir, history does not always repeat, but it does rhyme now 
and then. My father fought as a young F-4 Pilot in Vietnam, and 
he and many of his peers stayed in and rebuilt the Air Force 
his son needed to fight and win in Desert Storm. My daughter 
and my nephew are young Airmen today, and with your support, we 
will rebuild the Air Force they need to fight and win in this 
era of great power competition.
    Thank you for the opportunity to testify. We look forward 
to your questions.
    [The statement follows:]
             Prepared Statement of Dr. Heather Wilson and 
                       General David L. Goldfein
                         strategic environment
    Great power competition remains the central challenge to U.S. 
prosperity and security. A rapidly growing China and resurgent Russia 
aim to coerce their regional neighbors, undermine long- standing 
alliances, and displace American influence from critical regions around 
the globe. These great power competitors are challenging U.S. dominance 
in all warfighting domains: air, land, sea, space, and cyberspace. 
Additionally, they are confronting us with threats below the level of 
open conflict, through information warfare, ambiguous or denied proxy 
operations, and subversion.
    To face these challenges, the United States Air Force must compete, 
deter, and win across the five priority missions of the National 
Defense Strategy:
  --Defend the homeland,
  --Provide a safe, secure, and effective nuclear deterrent,
  --Defeat a powerful conventional enemy, while we
  --Deter opportunistic aggression, and
  --Disrupt violent extremists in a cost-effective manner.
    In fiscal year 2020, we will continue to build a more lethal and 
ready Air Force, while fielding tomorrow's Air Force faster and 
smarter.
                         an air force in demand
    Last year, Congress appointed an independent and bipartisan 
National Defense Strategy Commission to study the global security 
environment and forces necessary to prevail in an era of great power 
competition. Their conclusion unequivocally stated: ``regardless of 
where the next conflict occurs or which adversary it features, the Air 
Force will be at the forefront.''
    As the joint force prepares for peer conflict, the Air Force 
continues to be in very high demand. Our Airmen perform strategic and 
vital missions in all domains, across the spectrum of conflict, and 
from 65 feet below ground to our highest geosynchronous orbits.
    More than 21,000 Airmen are deployed around the globe, employing 
unrivaled air, space, and cyber power from over 179 locations. Last 
year, our Airmen conducted more than 50,000 sorties and 3,400 precision 
airstrikes alongside joint and partner forces in the campaign to defeat 
ISIS. In Afghanistan, the Air Force executed 44,400 sorties in support 
of our Afghan partners, and targeted Taliban and extremist networks 
with more weapons than any time in at least 5 years. Our mobility 
forces transported over 1.25 million personnel, 1 billion pounds of 
warfighting equipment and supplies, and evacuated more than 5,400 
patients for critical medical care. To bolster allies and partners, we 
increased NATO interoperability and readiness through the European 
Deterrence Initiative, and Air Force bombers flew over 60 sorties 
through our Continuous Bomber Presence in the Indo-Pacific. Airmen also 
delivered 152,000 short tons of relief supplies across Southwest Asia, 
supporting those who are displaced and suffering, and demonstrating 
U.S. commitment to building a stable and peaceful region.
    The Air Force also performs global, strategic, and critical 
missions from our homeland. We maintain our nuclear force at the 
highest state of readiness: last year our Airmen conducted 16,425 
intercontinental ballistic missile alert tours and 350 missile convoys 
across three missile wings and five states. In space, we operate 80 
satellites that provide communications, command and control, missile 
warning, nuclear detonation detection, weather, and the Global 
Positioning System (GPS) for the world. Our Airmen also support a 
global intelligence, surveillance, and reconnaissance (ISR) network, 
and last year completed nearly 57,000 missions, collected over 437,000 
hours of full motion video, and produced over 1 million intelligence 
products for our warfighters and policymakers. Every day, our Airmen 
stand ready on a moment's notice to intercept airborne threats to our 
homeland, and they defend Air Force and Department of Defense networks 
from our adversaries' persistent cyber-attacks.
    We can only meet these demands with predictable budgets driven by 
the National Defense Strategy. In fiscal year 2019, the Department of 
Defense received its first on-time appropriation in over a decade. That 
agreement required substantial effort by the Congress, and we are 
grateful for your support and confidence.
    However, continued budgetary uncertainty threatens to disrupt the 
progress we are making. Substantial budget cuts would erase the gains 
we made over the last 3 years and inflict substantial damage to our 
national defense. In 2013, in the wake of sequestration, we were forced 
to stand down one-third of our combat flying squadrons. We cancelled 
large-scale exercises and lost over one million work-hours of depot 
maintenance.
    Despite nearly 30 continuous years of combat, no enemy in the field 
has done as much to harm the readiness of the Air Force than the 
combined impact of artificial spending restrictions, worsened by 
operating for 10 of the last 11 years under continuing resolutions of 
varied and unpredictable duration.
    Let's be clear. We cannot fully implement the National Defense 
Strategy to protect America's vital national interests with 
unpredictable and constrained budgets. We must come together to find a 
way forward.
          the air force we need has 386 operational squadrons
    The National Defense Strategy calls on us to compete, deter, and 
win against near-peer competitors and across a wide spectrum of 
priority missions.
    Last year, in Congressional testimony, you asked us what we needed 
to implement the National Defense Strategy--not ``What is the Air Force 
we can afford?'' but ``What is the Air Force We Need?'' We didn't know, 
and we should know. You put that question in the 2018 National Defense 
Authorization Act, when Congress directed us to study the forces and 
capabilities we require to implement this strategy.
    Using our current operational plans and future defense planning 
scenarios projected into the 2025-2030 timeframe, we conducted 
thousands of simulations and wargames to answer this question. Our 
analysis produced an unmistakable conclusion: the Air Force is too 
small for what our Nation needs. We currently have 312 operational 
squadrons--the clenched fist of American air and space power. To 
implement the National Defense Strategy and prevail over our highest 
priority competitors, our Air Force needs 386 operational squadrons.
    To put this in context, at the height of the Cold War, in 1987, the 
Air Force had 401 operational squadrons. Four years later it would 
combat the Iraqi military in Operation Desert Storm, and decisively 
defeat Saddam's forces in just 43 days. Despite a shrinking budget and 
force size, the Air Force continued flying combat missions in the 
region, and added significant new demands and missions in the wake of 
9-1.
    The independent and bipartisan National Defense Strategy Commission 
also asserts the need for greater capacity in an era of great power 
competition. We cannot credibly face our future with the Air Force of 
today, evolved over two decades for counterinsurgency and 
counterterrorism operations. We must grow and meet our adversaries from 
a position of strength.
    Our study also shows more of the same isn't the best answer. The 
Air Force we need must evolve to incorporate advanced technology and 
wield cutting-edge capabilities in new and innovative ways. Together 
with our joint partners, we are developing Multi-Domain Operations as 
our new warfighting framework.
    While our land, sea, air, space, and cyber forces have become more 
joint and coordinated, they are not sufficiently integrated for the 
future fight. Multi-Domain Operations will integrate U.S. and allied 
forces across all warfighting domains. This concept will rely on a 
joint and interconnected network of sensors, weapons, and platforms. 
Forces will rapidly share information and present our warfighting 
commanders unprecedented levels of knowledge. With information 
superiority, we will simultaneously converge warfighting effects from 
all domains and produce intractable dilemmas for our adversaries.
    Ultimately, Multi-Domain Operations will be executed by our 
operational squadrons, the combat power of the Air Force. Not all 
squadrons are the same size, and not all squadrons fly airplanes. The 
National Military Strategy directs a balanced ``boxer's stance'' of 
military readiness, and our operational squadrons form the clenched 
fist of American resolve. But a fist is nothing without the power of 
the body--our supporting squadrons--behind it. These squadrons repair 
our aircraft, manage and secure our infrastructure, keep our logistics 
and supplies flowing, and support our Airmen and their families. Our 
operational and supporting squadrons will fight together, so they must 
grow and modernize together.
         america is building a more lethal and ready air force
    Our National Defense Strategy directs a more lethal and ready 
force, prepared to defeat our adversaries in high-end combat. This past 
year, we focused the additional resources provided by Congress on our 
pacing squadrons, the 204 operational squadrons required in the opening 
days of a peer fight. With these resources, we are more ready for major 
combat operations today than we were 2 years ago. More than 90 percent 
of our pacing squadrons are ready to ``fight tonight'' with their lead 
force packages--the first Airmen to deploy at the beginning of a 
conflict. When we include their follow-on forces, these pacing 
squadrons are on track to reach 80 percent readiness before the end of 
fiscal year 2020, 6 years faster than originally projected. As our 
front-line squadrons meet their readiness goals, we will also ensure 
the remainder of our operational squadrons reach the 80 percent 
readiness mark by 2022, as we continue to build toward the 386 
operational squadrons we require.
    People and Training. Readiness recovery is first and foremost about 
people. Recently authorized increases in end strength helped eliminate 
a shortage of 4,000 Active Duty maintainers. In 2 years we closed this 
gap and are working to build expertise in these young Airmen. While Air 
National Guard and Air Force Reserve maintainers still face manning 
challenges, our fiscal year 2020 budget continues this end strength 
growth by adding 4,400 Airmen and 5,143 civilians to the Total Force.
    To address our aircrew shortage, we are implementing initiatives to 
increase the number of pilots we train, season them in operational 
units, and retain experienced aircrews.
    Last year we produced 1,21 pilots, 146 more than originally 
expected. This budget builds on our progress and will produce 1,480 
pilots in 2020. We are also exploring how to use new technologies in 
our ``Pilot Training Next'' program, where we are using virtual reality 
and more simulators to train pilots better and faster. As we season 
these young Airmen, some of our new Active Duty pilots will begin their 
flying careers with a Guard or Reserve squadron and benefit from the 
deep experience we have there. We are also pursuing quality of life and 
quality of service reforms to retain our aircrew. Our new Talent 
Marketplace gives Airmen greater transparency on their assignment 
process, and we are reducing the number of year-long deployments to 
improve stability and reduce the burden on families.
    Our Airmen are shifting their focus to great power competition, and 
we must train and equip them for the high-end fight. This budget 
proposal includes funds to modernize our live and virtual ranges and 
infrastructure to provide relevant and realistic training capabilities 
against our most advanced threats. The Nevada Test and Training Range, 
the Joint Pacific Alaska Range Complex, the Utah Test and Training 
Range, the Space Test and Training Range, and several smaller range 
complexes will receive targeted funding to better replicate the 
capabilities of our peer adversaries. We are exploring ways to expand 
contract adversary air--aircrews who are trained to fly as ``bad 
guys''--from a single test case to up to three locations, freeing our 
Airmen to practice their own skills rather than spend time simulating 
the skills of our adversaries. This budget includes 1.1 million 
peacetime flying hours, the maximum amount of sustainable training, to 
prepare our Airmen to fight alongside allies and partners as vital 
members of our joint force.
    Cost-Effective Maintenance and Logistics. We are focusing on 
innovative ways to maintain and supply our aging fleets. Last year, a 
team of Airmen conducted a detailed sustainment review and produced 45 
recommendations to ensure our aircraft and equipment are ready to meet 
Combatant Commander timelines. We are fielding innovative technologies 
to streamline supply chains, drive engineering improvements, and manage 
our fleets. We are using data to make our maintenance personnel more 
efficient and effective, and we are testing analytic tools and 
monitoring sensors to match industry best-practices, known as 
``conditions based maintenance.'' By being able to better predict when 
a part will fail, we can improve readiness while saving time and 
money--initial tests on several E-3 and C-5 components show the 
potential to reduce up to 30 percent of unscheduled maintenance. And 
we're making reforms cost-effectively. Our Oklahoma Depot is now 
completing major repairs on our KC-135 fleet 40 percent faster and at 
half the cost of recent industry contract proposals.
    A ready force needs a modernized logistics system to power it. Last 
year, we established the Rapid Sustainment Office to improve readiness 
and drive down the cost of repairs by using advanced manufacturing 
technologies. Through partnerships with universities and industry, this 
office is identifying emerging technologies that can reduce the cost of 
maintaining our weapons systems.
    We will scale these reforms across the Air Force. This budget 
includes $16.4 billion in weapon system sustainment to support our home 
station and deployed fleets. We are striving to achieve 80 percent 
Mission Capable Rates in our F-16, F-22, and F-35 fleets by the end of 
this fiscal year. We will continue to focus on supply inventory, 
increasing our maintenance capacity, enhancing our training and 
proficiency, and moderating our operational tempo to help our 
maintainers meet this goal.
    Aviation Safety. We will not compromise safety as we prepare our 
Airmen and align resources for great power competition. Last year, the 
Air Force experienced an uncharacteristic increase in in-flight mishaps 
and fatalities for manned aircraft. The safety of our Airmen remains a 
top priority, so we initiated several actions to bolster our mishap 
prevention programs, including additional safety training and 
operational pauses to discuss risk. Our mishap rates are decreasing 
toward historic averages, and we will continue to improve these 
programs over the next fiscal year. We are thankful for Congress' 
support and interest in this important issue. We look forward to 
working closely with our joint teammates and the newly created National 
Commission on Military Aviation Safety, established by Congress in the 
2019 National Defense Authorization Act.
    A Safe, Secure, and Effective Nuclear Deterrent. The Air Force 
provides two-thirds of our nuclear triad and 75 percent of our nuclear 
command, control, and communications capability. We demand the highest 
standard of readiness from the Airmen who manage and safeguard our 
nuclear enterprise. The triad remains the ultimate guarantor of 
American, allied, and partner security, and underpins America's 
military power and diplomacy worldwide. As our adversaries continue to 
modernize and expand their nuclear weapons and delivery systems, the 
National Defense Strategy, Nuclear Posture Review, and National Defense 
Strategy Commission all reaffirm America's need for a modernized triad 
of air, sea, and land-based nuclear weapons, tied together by a 
resilient command and control architecture. These forces deter nuclear 
and non-nuclear strategic attack, assure our allies and partners, 
achieve our objectives if deterrence fails, and hedge against an 
uncertain future. Today, we perform these missions with the smallest 
and oldest nuclear enterprise in our history. It is imperative that we 
sustain our existing triad and replace these aging systems. Our budget 
proposal fully funds our major nuclear modernization programs.
    Our Ground Based Strategic Deterrent will replace the aging 
Minuteman III intercontinental ballistic missile, first deployed in 
1970. These ground-based missiles are the most responsive leg of the 
triad, given their long range and constant state of readiness.
    Our Long Range Standoff Weapon will replace the Air Launched Cruise 
Missile and improve bomber lethality and survivability through 2060. 
Our modernized B-52, B-2, and upcoming B-21 bombers are the most 
visible and flexible leg of the triad. They can be deployed to signal 
resolve, and their sustained flight times and ability to be recalled 
increase stability and Presidential decision-making time.
    Finally, we are modernizing our nuclear command and control system 
to ensure the President has uninterrupted access to his leadership team 
and command of nuclear forces, under all conditions, without fail.
    Since the end of the Second World War over 70 years ago, every 
President and every Congress has supported the nuclear triad as a vital 
element of our national defense. We must continue to do so.
    Modernization. America's potential adversaries are rapidly fielding 
capabilities that approach our own. We must retain our technological 
edge and equip our Airmen with highly advanced and lethal tools to 
prevail in high-end combat.
    As we design our future Air Force, we are examining different 
operating concepts to frustrate our opponents and defeat them in 
combat. We will need systems that can penetrate contested environments 
or remain outside these zones and employ long-range weapons and 
effects. We are investing $1.5 billion to test and prototype game-
changing technologies to cement our warfighting advantage, including 
hypersonic weapons, directed energy, and adaptive jet propulsion. Our 
next-generation penetrating bomber, the B-21 Raider, is proceeding on 
schedule and building on 3 years of successful development. It will be 
able to deliver both gravity bombs and the Long Range Standoff Weapon 
to hold adversary targets at risk around the world. High-end conflicts 
will require the long-range capability of an advanced bomber fleet, and 
the B-21 is central to the expanded bomber capacity and capability we 
need.
    Our aerial refueling capability underwrites the global nature of 
Air Force power and enables the rapid deployment of aircraft. We 
recently welcomed our first KC-46 tankers and are proposing to buy 12 
more KC-46 tankers in fiscal year 2020.
    The future fight will require a robust network architecture and 
battle management system. This budget funds our continued transition to 
the Advanced Battle Management System, a family of systems that will 
fuse data from multiple platforms across all warfighting domains. 
Nearly every system on the battlefield will contribute data to this 
network, and through advanced analytics, commanders will understand the 
battlespace and be able to direct forces faster than our adversaries. 
To develop the capability for successful Multi-Domain Operations, we 
are upgrading legacy command and control nodes and have established an 
architecture to ensure the many programs that must connect and share 
information will work together. We are also upgrading and modernizing 
our electronic warfare systems, organizations, and analysis capability 
to dominate the electronic spectrum.
    We remain committed to the dual-capable F-35 and its game- changing 
capabilities, including its ability to deliver nuclear weapons, and 
will continue purchasing 48 aircraft each year. No other weapons system 
is designed to fuse information and make split-second decisions inside 
defended enemy airspace. As the quarterback in the air fight, this 
aircraft combines the capabilities of our joint, allied, and partner 
teammates to deter or defeat our adversaries.
    While budget increases are making a significant difference and 
restoring the readiness of the force, our analysis indicates that we 
must purchase additional aircraft in the future to fully implement the 
National Defense Strategy. Our current fighter force of 55 squadrons is 
too small.
    At the same time, our F-15C fleet is aging, with two-thirds of the 
fleet past its certified service life. This fleet is expensive to 
maintain, and F-15C capability against advanced threats is diminishing 
over time. Our budget proposes to replace the F-15C with a modernized 
successor by purchasing the F-15EX. We propose to buy 80 aircraft over 
the next 5 years. This decision allows us to benefit from foreign 
partner investments in the F-15 line to begin cost-effectively 
replacing our F-15C fleet.
    Cyber Dominance. Every day, Airmen encounter sophisticated and 
persistent adversaries in cyberspace, some of whom are now peer 
competitors in this domain. To meet this challenge, we are producing 
innovative cyber capabilities to repel these threats, defend our 
networks, and support Combatant Commanders around the globe. These 
capabilities also strengthen domestic cybersecurity efforts, and helped 
counter adversary attempts to interfere in last year's election.
    Our fiscal year 2020 budget submission advances how we train and 
equip cyber forces for Multi-Domain Operations. We are investing in new 
capabilities to identify network threats and vulnerabilities, and are 
designing countermeasures to mitigate risks to our weapon systems. Last 
May, our Cyber Mission Forces achieved operational capability 4 months 
faster than predicted. We will continue leading joint efforts to supply 
these Airmen with a new, integrated cyberspace operations suite, the 
Unified Platform. To fully harness this capability, the Joint Cyber 
Command and Control system will provide Combatant Commanders cyber 
situational awareness and battle management of these forces. We face an 
increasingly contested cyber domain, and these investments will provide 
the tools we need to prevail in both competition and conflict.
    Accelerating Defendable Space. Our adversaries have recognized the 
advantages we gain from operating in space, and are developing 
capabilities to deny us the use of space in crisis or war. They are 
developing weapons that can blind or jam satellites with directed 
energy and electronic warfare, target ground sites and infrastructure 
through cyber-attacks, or physically destroy or damage our satellites 
with missiles or dual-use, on-orbit spacecraft. While we all would 
prefer that space remain free of conflict, we will deter and defeat 
these threats in order to secure the satellite constellations that 
power our military forces and civil societies.
    In January of 2018, we transitioned the National Space Defense 
Center from an experimentation and planning office with weekday 
business hours to an around the clock operations center to protect and 
defend our assets and interests in the space domain. In July, we 
transitioned the Joint Space Operations Center to a Combined Space 
Operations Center, integrating the efforts of allies, partners, and 
commercial industry.
    In the 2019 budget, we proposed a significant change to our space 
plans. With the support of Congress, we added nearly $1 billion to the 
fiscal year 2019 Air Force space program. Our fiscal year 2020 budget 
builds on our advances and further accelerates efforts to protect and 
defend our ability to operate in space. We propose a $14 billion 
investment in our space portfolio in fiscal year 2020, a 17 percent 
increase over our fiscal year 2019 budget. It frames our warfighting 
approach and changes how we prototype and field innovative space 
technologies to stay ahead of our competitors. This budget includes $55 
million for the demonstration of technology for a proliferated 
satellite constellation. In partnership with the Defense Advanced 
Research Projects Agency, we will assess the future of small, low-cost 
platforms.
    The Department of Defense recently submitted legislation to 
establish the Space Force as a new armed service within the Department 
of the Air Force. This legislation would consolidate missions from 
across the Department into a single Space Force. It would establish a 
civilian Under Secretary of the Air Force for Space and a Chief of 
Staff of the Space Force who would be a member of the Joint Chiefs of 
Staff. This proposal capitalizes on the Air Force being the best in the 
world at space, and given the new era of strategic competition, is the 
right move to posture us for the future.
    Finally, we are devoting greater time and resources to train and 
develop our space operators as true warfighters. They will be the 
cornerstone of U.S. Space Command, our newest Combatant Command.
        we are fielding tomorrow's air force faster and smarter
    An era of great power competition demands we rethink the way we buy 
things. China is innovating faster than we are, and fielding game-
changing forces. We cannot win this contest with an acquisition system 
from the Cold War. We must move fast to stay competitive, and we are 
fundamentally transforming what we buy, how we buy it, and from whom we 
buy it.
    The 2016 and 2017 National Defense Authorization Acts restored 
responsibility for acquisition to the Services, and granted us new 
authorities to accelerate prototyping and fielding. With these 
authorities, we are changing the way we buy things to get capability 
from the lab bench to the warfighter faster.
    Our experience shows that delegating authority works. Last summer 
we set a goal to strip 100 years of unnecessary schedule from our 
program plans. So far, we have saved over 78 years and are closing in 
on our milestone.
    Three contributing factors are making us faster. The first is 
prototyping. For example, in hypersonics, we are leveraging available 
technology from across the Department of Defense to build, fly, and buy 
our Nation's first operational boost-glide weapon 5 years earlier than 
anticipated. For our Next-Generation Overhead Persistent Infrared 
Missile Warning satellites, we are competitively prototyping a new 
sensor, retiring this key risk nearly a year earlier, while also 
strengthening the industrial base for future programs.
    The second contributing factor to increase speed is the use of 
tailored acquisition strategies. We have empowered our workforce to 
structure decisions around the specific needs of their programs, as 
opposed to the generic milestones of the traditional acquisition 
process. Recently, our F-15 Eagle Passive/Active Warning Survivability 
Systems split its Milestone C decision into two tailored reviews, 
accelerating fielding by 18 months at no additional cost.
    The third major effort to increase speed to the warfighter is agile 
software development. The decades-old ``waterfall'' process for 
developing software is too slow, very expensive, and often doesn't work 
at all. We are making a wholesale shift to agile development, putting 
acquirers and operators together to make rapid incremental software 
improvements. We proved the concept with a new tool to plan air 
refueling at the Combined Air Operations Center at Al Udeid Air Base, 
where we command the air war against ISIS, Al Qaeda, and the Taliban. 
Our agile software tool saved the Air Force millions of dollars in fuel 
each month, reduced the requirement by two tankers and ten aircrews, 
and delivered a modern software planning tool to operators in months, 
not years.
    We established the Kessel Run Experimentation Laboratory to 
continue applying agile development for the warfighter and stood up a 
Program Executive Office Digital to develop and proliferate best 
practices across the Air Force. So far, major programs like F-22, the 
Unified Platform for cyber warfare, and the Protected Tactical 
Enterprise System are reaping the benefits of shifting to agile 
development, accelerating delivery of tools to the warfighter.
    Using authorities given to us by Congress is not just faster, it's 
giving us better results. We are able to find design flaws earlier in 
the development period, fix them faster, and ultimately save money with 
better products. Our B-52 Commercial Engine Replacement Program will 
use digital models of new engines to compare their performance, with 
greater levels of confidence in the results. Not only will we save more 
than 3 years from normal development timelines, we expect to achieve up 
to 30 percent greater fuel efficiency by prototyping these models.
    Our recent Light Attack Experiment was conducted under these 
authorities and taught us important lessons we would not have learned 
through a traditional acquisition process. This experiment sought to 
test whether an existing commercial aircraft could perform as a combat 
capable and cost-effective platform to support the global campaign to 
counter violent extremism. Key to the experiment was the development of 
an intelligence gathering and information sharing network that will 
improve interoperability with allies and partners. Based on available 
aircraft that met experimental criteria, we focused last year on only 
one aircraft type and intend to expand the experiment in this budget to 
include additional aircraft types (rotary, unmanned, turbojet) and 
improved technologies. Additionally, we intend to continue our close 
partnership with industry and allies to further this technology as we 
determine the best strategy going forward. We remain committed to 
developing a cost-effective and increasingly networked counter-violent 
extremist capability to deepen these partnerships and directly support 
the National Defense Strategy.
    We are also committed to competition. The Air Force saved over $15 
billion dollars through robust competition with the National Security 
Space Launch, Global Positioning Satellite IIIF, the UH-1N helicopter 
replacement, and the T-X jet trainer.
    Our Space Enterprise Consortium is removing barriers to entry for 
small business and non- traditional vendors, and these companies now 
make up nearly 80 percent of the Consortium's 235 partner 
organizations. By removing bureaucracy and giving authority to our 
Program Managers, our Space and Missile Systems Center is awarding 
prototype contracts in 90 days, twice as fast as traditional 
contracting.
    Technology is evolving faster than ever before, and we are 
acquiring the intellectual property, data, and software rights to keep 
pace with this change. When we retain ownership, contractors must 
compete to sustain and improve these systems, producing better 
performance and lowering costs. We have already secured these rights in 
our UH-1 helicopter replacement and T-X jet trainer programs, and we 
will continue pursuing these ownership rights to flexibly modernize our 
force.
    As we increase competition we are leading innovative approaches to 
contracting with small businesses and start-ups, and last year we 
awarded over $1 billion to such companies. By law, we must spend $660 
million through our small business innovation and technology transfer 
programs, and want to make partnering with the Air Force easy and 
energizing. We created a new mechanism to get dollars into the hands of 
small businesses faster than before. By combining government credit 
card payments with one-page contracts, we created a small-dollar 
contracting process that will ``pay in a day.'' Last November, we 
sought to award 50 small business contracts in 50 hours. We surpassed 
our expectations and more than doubled our goal, awarding 106 contracts 
in only 42 hours.
    We just completed our inaugural Pitch Day to build on this success. 
We invited entrepreneurs and start-ups to pitch revolutionary solutions 
to Air Force problems. During the two-day event, 51 businesses won 
contracts and were immediately paid up to $158,000, often within 15 
minutes of their presentations. America's small businesses and start-
ups are engines of innovation, and we are developing creative ways to 
employ their talents.
    These authorities do not sidestep key decisions or oversight, and 
we will not sacrifice quality for speed. Early prototyping informs the 
Department of Defense and Congress about a program's feasibility before 
making costly decisions to buy it. We are mindful of the trust placed 
in us, and re committed to giving you more transparency about how we 
are using new authorities than what is required for traditional 
procurement. We will soon release our second annual report on 
acquisition, giving you all our results, and we will provide you 
reports on our prototypes and experiments three times a year.
                an air force to compete, deter, and win
    The United States faces an increasingly complex global security 
environment, characterized by overt challenges to the free and open 
international order and the re-emergence of long-term, strategic 
competition between nations. To meet these challenges, the Air Force is 
evolving to project unmatched power through the air, space, and cyber 
domains. We are prioritizing our readiness to fight tonight and are on 
track to meet our readiness goals. The new authorities Congress has 
given us are allowing us to field tomorrow's Air Force faster and 
smarter. We must rebuild the capacity we lost and field a force that 
will compete, deter, and win for the American people.

                        EFFECTS OF SEQUESTRATION

    Senator Shelby. Thank you. Secretary Wilson, the 2020 
President's Budget Request includes $718 billion for the 
Department of Defense, but to comply with the Budget Control 
Act, the Department has requested a large amount for an 
overseas Contingency Operate, OCO. In your written statement, 
you say that the Air Force cannot fully co-implement the 
National Defense Strategy with a constrained budget, and I 
think that is a given. How would sequestration spending levels 
impact your current operations and your efforts to restore 
readiness and modernization of weapons systems? Be as specific 
as you can in this open hearing.
    Secretary Wilson. Mr. Chairman, our adversaries around the 
world have not done as much to damage the United States Air 
Force as sequester did and going through sequester again would 
be devastating to this Force. It would undermine the advances 
that we have made in the last 3 years. And just even go back to 
look at what happened when it happened before, it basically 
meant the grounding of about a third of the Air Force. There 
was a million hours of maintenance that did not get done in our 
depots, and we are still digging out from under the impact of 
sequester. If we did it again, the cuts would be deeper, and 
the impact would be more lasting.

                           HYPERSONIC WEAPONS

    Senator Shelby. General Goldfein, 2019 Defense 
Appropriations Act included additional funding to accelerate 
and to bolster several areas prioritized in the National 
Defense Strategy, including hypersonic weapons, 
microelectronics, and test evaluation of infrastructure. We 
understand a lot of that is difficult to talk about in this 
setting today, but what could you tell us in an open hearing 
that what you are doing with that?
    General Goldfein. Sir, I will start and the Secretary I 
know has been very active with her fellow Secretaries on 
working together across the services on these issues, 
especially in the business of hypersonics. So, we have 
investment in this budget, in next generation of air dominance. 
We have investment in this budget in networking the future of 
warfare to ensure that every sensor and every shooter are 
connected, and then it brings our asymmetric advantage to the 
fight so we can produce multiple dilemmas for an adversary. It 
has money in this budget to work on directed energy, and it has 
money in this budget that takes us from a purely defensive 
posture in space, to also bringing offensive capability. And I 
will turn over to the Secretary on hypersonics.
    Secretary Wilson. Mr. Chairman, I think hypersonics is a 
good example of where we are doing things faster and smarter by 
working together with the other services. The three Service 
Secretaries get together quite often. In one of our first 
meetings, we decided to sign a memorandum of understanding on 
hypersonics. Navy had funded the test of a warhead on an Army 
system with an Army shell that they work pretty well, but the 
Air Force had better rockets. So, what we are doing for a 
Hypersonics Program is we are testing the Army shellers, the 
outside of the system, with Air Force rockets, and we are 
designing this with all three services involved so that it 
could be dropped off an aircraft, launched from the ground, or 
launched from the deck of a ship. By doing this jointly and 
using best technology, going fast, learning from each other, we 
have accelerated the deployment of a hypersonic weapon by 5 
years.
    Senator Shelby. And you eliminate some stove pipes there 
that you do not need them.
    Secretary Wilson. Yes, sir.

                             KC-46 TANKERS

    Senator Shelby. Secretary Wilson, the KC-46 tankers. We 
understand that the Air Force has accepted the first KC-46 
tankers earlier this year, but two deficiencies, I understand, 
remain outstanding. What is the Air Force's plan to resolve 
these, dealing with the deeper matter, and ultimately 
recapitalize aging the tankers fleet because the tankers are 
very important to project force, as you know.
    Secretary Wilson. Mr. Chairman, our budget includes 
purchase of the next, I think it is 12 KC-46 tankers in fiscal 
year 2020. We have accepted the first tankers and brought them 
into both Oklahoma and Kansas. There are two critical 
deficiencies that we are working on. One had to do with the 
stiffness of the boom for light aircraft, and particularly the 
A-10, which is a very light aircraft. The boom actually met 
international standard, so it met the standards and that is 
actually the first change on this program that the Air Force 
has requested is a redesign of one of the actuators on that 
boom so that it can accept lighter aircraft. That was at our 
expense. The Remote Vision System has some issues with it, in 
the acuity of the system, and the Air Force and Boeing have 
reached agreement on what the technical parameters have to be 
for that fix, and it will be done at Boeing's expense.
    Senator Shelby. You think that is going to be worked out in 
the next year?
    Secretary Wilson. They are working on the technical design. 
Now, it will not actually be all back into all the systems, 
probably----
    Senator Shelby. But the boom is actually key to refueling, 
is it not General?
    General Goldfein. Yes, sir. And I will tell you that having 
been a receiver of getting fuels in some really bad places on 
the world, I went out and flew the airplane and put it through 
the wringer. And there were four criteria I was looking at. 
Number one, how does it fly? Number two, how does it 
communicate? Number three, how does it defend itself? And then 
four, how does it tank? Because we bought us commercial stock 
767 aircraft, we got a lot of great capability when it comes to 
how it flies. And what I was very interested in is, how stable 
it is for receivers, its ability to communicate. What I am 
perhaps most excited about as we look at network warfare, the 
future, is the fact that there are 13 additional stations where 
we can place community nodes in the future to take full 
advantage of that capability.
    When it comes to defending itself, it has defensive 
capabilities that do not exist on the KC-10 and the KC-135. And 
then last issue was what the Secretary talked about, which is 
its ability to tank, and those areas that they are working--I 
mean, we are tough customers and we did not accept a single 
airplane until the company agreed to fix the deficiencies that 
they had. And we are going to continue to be tough customers 
and hold them to account.
    Senator Shelby. Well it is imperative that the system work, 
for the warfighter, is it not?
    General Goldfein. Absolutely.
    Secretary Wilson. Mr. Chairman, if I could add, while there 
is a deficiency in the Remote Vision System, it is one that we 
are working around and where the warfighter said, you know, if 
we go to war next week, we want to have this in our hands, not 
sitting on the ramp because it actually tanks--it is better 
than our current tankers when it is hardest to tank, at night, 
in bad weather, without lights out. It is hardest in bright 
sunlight, which is when it is easiest tank.

                              SPACE FORCE

    Senator Shelby. Madam Secretary, Senator Durbin already 
touched on this a little bit in his opening statement, Space 
Force. The Department of Defense has submitted a legislative 
proposal that will go to the Armed Services committee, 
concurrent with the President's budget request for 2020 to 
begin the establishment of the U.S. Space Force as a separate 
military service within the Department of the Air Force. Can 
you explain the reasoning behind the change, in particular the 
need to address current and future space risk, and what does 
this do to the Air Force? Is this important to do? A lot of 
people believe that the Air Force is space, you know, that it 
is about space. You want to get into that a little bit?
    Secretary Wilson. Mr. Chairman, the United----
    Senator Shelby. Maybe you do not want to, but----
    [Laughter.]
    Secretary Wilson. Yes, sir. Mr. Chairman, the United States 
is the best in the world in space, and our adversaries know it. 
And they are seeking to develop the capabilities to deny us the 
use of space in crisis or in war. This year we are standing up 
a Combatant Command to be able to fight and win in space. And 
we had a Combatant Command before 9/11, and that will help us I 
think change back to a war-fighting mentality in space and 
recognize the threats that are emerging. We also, and you also, 
have approved significant changes in programs based on threat 
and the strategy that we put forward in fiscal year 2019, and 
we are asking for another boost in fiscal year 2020, a 17 
percent increase in the space budget.
    American policy is to maintain American dominance in space 
so that space capabilities are available to the joint 
warfighter, and so that we deter and attack. We have developed 
the strategies in order to implement that. The organizational 
change put forward in the President's proposal, elevates and 
enhances the influence of space leaders in the Pentagon for the 
long haul. I think all of these things taken together are the 
right move for the country. There is a risk always that, you 
know, I am particularly interested in space. Have been and 
spent probably about a third of my time on space related 
matters because of the emerging threat. You never know whether 
that is going to be sustained over time.
    And I think one of the fears, and it is probably a 
legitimate fear, is that organizationally, space is smaller 
than its significance within the Pentagon bureaucracy. And I 
think that is something that we should consider as we evaluate 
the President's proposal, that this will elevate and 
institutionalize space as a member of the Joint Chiefs of 
Staff, and within undersecretary in the United States Air 
Force.
    Senator Shelby. Senator Durbin.
    Senator Durbin. Thanks very much, Mr. Chairman. I want to 
follow up on that because last year I kept hearing this 
conversation about a Space Force, the satellites, and I thought 
to myself, I do not know enough about this. I went and had a 
classified briefing and I invite all the members of the 
committee here, and I would hope that you will--I would be glad 
to return to do it again. It was a fascinating moment to 
understand exactly what we rely on in space when it comes to 
satellites, and their vulnerability. The things that we have 
come to take for granted in our lives, global positioning, 
weather, on and on where satellites play critical role, and we 
are vulnerable, as the Secretary said.
    They are not just targets, they can be weapons, but at the 
same time they can be vulnerable in times of conflict. And the 
basic question we have to ask is whether or not this is part of 
the Air Force that needs to be somehow separated as the Marine 
Corps is separated within the Secretary of the Navy's 
jurisdiction. Can you help me, Madam Secretary, understand by 
perspective the numbers we are talking about. How many civilian 
and military personnel are part of the Air Force today?
    Secretary Wilson. Thank you, Mr. Chairman. Let me start out 
with equipment. We have 80 satellites. The United States Air 
Force operates 80 satellites. The Navy has 13 more, and a 
communications satellite system called MUOS that they operate, 
of those 80, 31 are GPS. So, most people do not know this, but 
the blue dot on your phone is provided by the United States Air 
Force. By a squadron of 40 Airmen in Colorado Springs, 
Colorado, average age 22, which is just terrifying to all of 
us. But so, we provide GPS to the world.
    Satellite communications, we do for the joint Force, 
weather, as you mentioned, as well as missile warning. We have 
eight missile warning satellites. So, if you see on the 
television the, you know, launch of missile from some rouge 
State and you see the arch of that missile launch, we initially 
detect that and then detect it where it is going from Space 
Center. So that is what we do. It involves about 15,000 people 
total, Army, Navy, and Air Force. About 90 percent of those 
currently are United States Air Force.
    Senator Durbin. And in the Air Force itself, how many 
civilian and military employees? I am told it is over 800,000--
--
    Secretary Wilson. 685,000.
    Senator Durbin [continuing]. Military, and then there is 
civilian. And civilian, 685,000?
    Secretary Wilson. Active Guard, Reserve, and civilian.
    Senator Durbin. So, 685,000, your complement of military 
and civilian in the Air Force, and about 15,000, you think, in 
terms of those who are directly responsible for the Space Force 
responsibility we have discussed?
    Secretary Wilson. Yes, sir.
    Senator Durbin. Is that, about right?
    Secretary Wilson. Yes, sir.
    Senator Durbin. Okay. And I might say to my colleagues 
here, what we are talking about is creating a bureaucracy, 
let's be very blunt about it, a bureaucracy to command these 
15,000 people within the Air Force. What does that mean? I 
mean, how many Generals are we talking about? Three stars, one 
star. How much brass do we have to create under this proposal?
    Secretary Wilson. Mr. Chairman, the legislative proposal 
does say that there would be a Chief of Staff for the Space 
Force and the remainder of what the structure is, is really 
left, has a lot of wide discretion from the Secretary of 
Defense and the Secretary of the Air Force. I think it is 
reasonable to presume that there are--if you are going to have 
a four star, you have to have a certain number of four, and 
three, and two, and one stars underneath it in order to support 
the----
    Senator Durbin. Can you give me any kind of idea of what we 
are talking about in terms of bureaucracy that needs to be 
created on top of what we currently have?
    General Goldfein. Sir, I will tell that we were in a robust 
debate, as you might imagine, within the Department to get 
after the President's guidance, and we were debating everything 
from initial guidance, which was separate Secretary, separate 
Department, all the way to a sort of a JAG Corps, Medical 
Corps. Where we landed, which is a separate service within the 
Department of the Air Force is recognizable from war funding 
standpoint. As soon as the decision was made, which is just 
part of the legislative proposal being issued, given to 
Congress, we put together the directive by the Acting Secretary 
of Planning team led by a two-star General. They are now 
working through all of the details associated with the 
questions you are asking--How many generals? How many people? 
Where will they reside?--and that planning team has been up and 
operating now for a few weeks.
    Senator Durbin. I say to my colleagues, think about this, 
think about what we are going to ask you to do to create this 
new bureaucracy, over 15,000 people who are doing, I think most 
of us would agree, an extraordinary job already. We are told 
that the bureaucracy that we would create would cost $2 billion 
over the next 5 years. And that is just an estimate, as General 
Goldfein said. There are experts that are looking carefully at 
this. But we ought to be asking ourselves, are we just dazzled 
by this notion of a Space Force? Is this going to make it safer 
with $2 billion spent on new equipment, better equipment, more 
training for those who operate equipment, be a better 
investment in National Defense than a ``Space Force''?
    We have the responsibility along with the Armed Services 
committee to ask that question. If the late John McCain were 
here, I think I know his answer to it. He basically pushed back 
against the creation of brass and bureaucracy saying let's put 
it into the capabilities and readiness so the people serving 
our Nation are ready. So, I do not want to rain on the Space 
Force parade, but I do think we are going to have a cold day of 
reckoning here in terms of whether this is something which we 
will come to regret when we look at if your bureaucracy which 
may be rivaling the number of people it is supposed to be 
serving.
    Senator Shelby. Well, Senator Durbin. And before calling 
Senator Moran. He is asking some serious questions here. 
Ultimately, the Armed Services committee will first work on 
this, but ultimately, we are going to fund it or not fund it, 
right? Right here in this committee. Senator Moran.
    Senator Moran. Chairman Shelby, thank you very much. 
General, thank you for your presence. Heather, Secretary, it is 
an honor to have you in front of us once again. I knew when I 
met you, we were classmates of 1996 arriving in the House of 
Representatives, that someday you would be President, and now 
it is apparently coming true so congratulations. Secretary, you 
indicated in your testimony before the subcommittee last year 
five key changes to confront the reemergence of great power 
competition in support of our National Defense strategy. And 
among those five was light attacker aircraft.

                         LIGHT ATTACK AIRCRAFT

    Your goal, which you have reiterated many times was, 
``fielding a force of U.S. light attack aircraft'' by using 
``rapid fielding and rapid procurement strategies,'' and you 
highlighted in your comments today about the rapidity, of the 
ability to now for the Air Force to contract. For several 
years, light attack aircraft has served as the sort, in my 
mind, of the proof concept as to whether the Air Force could 
use the tools that you have been given to field a force of 
light attack aircraft. Those tools are rapid acquisition 
authority that Congress provided you, ample funding provided by 
the Appropriations Committee for testing and experimentation on 
two turboprop platforms that you selected, the industry 
partners' investment of their own capital to help the Air Force 
meet requirements during this multi-year experiment process.
    When the Director of Operational Test and Evaluation 
released a report just last December, 4 months ago, indicating 
the Air Force ``intends to procure 359 aircraft for 8 
operational squadrons and 3 flying training units.'' We 
thought, I thought that the rapid acquisition process with 
industry partners worked for our warfighters and for our 
allies, and that the light attack was proof that this process 
could work. However, it appears to me that there is no request 
for dollars, for procurement, in this budget and it seems to me 
that there is a schizophrenia at the Air Force about light 
attack.
    The messages are mixed, and I am hoping that you will be 
able to tell me that you expect or requesting something more 
than additional study, dollars for experimentation, and that we 
are ready to move forward with the right light attack aircraft 
procurement process. Is there such a request?
    General Goldfein. Senator, I will take that and then turn 
over to Secretary if she had any comments. You correctly stated 
that this is all about supporting the National Defense Strategy 
and it is important to talk about the strategy against violent 
extremism, and then how we use the authority you gave us to get 
at experimentation and prototype correctly in support of that 
strategy. The long term strategy against violent extremism is 
to drive violence down to the point where it can be managed 
within the borders of governed nations. And so, what we did was 
we looked at three core principles when we started this 
experiment.
    And the core principles was number one, this is about 
allies and partners, this is about how do we get more allies 
and partners in with us because my International Air Chiefs 
tell me, I have got violence, I am dealing with it inside my 
borders, I cannot afford an F-16, I am not going to get an F-
35, I need something and it has got to be interoperable so we 
can join you in this fight. And this is a fight from the 
Philippines to Nigeria, into the Central and South America. So, 
they need--this needs to be about allies and partners.
    The second core principle is this needs to be a mix of 
capabilities that are interoperable because some of the Air 
Chiefs tell me, I need a turboprop, some of them tell me I need 
a turbojet, some of them want rotary-wings, some of them want 
manned and unmanned. What ties it all together is an 
intelligence-gathering and information sharing network that 
allows them to be interoperable with us and with each other. 
And the third core principle is that we from the beginning said 
this has to be additive. There is no area across the United 
States Air Force that we can trade for this because we are 
doing this directly in support of the strategy. So, we took the 
authorities that you gave us to work through this experiment, 
and the two companies that joined us have been spectacular. We 
put money towards it, they put money towards it, but when we 
got to the end of the experiment period, the question we had 
was do we have the strategy right? Do we have the 
interoperability right to be able to put forward a request for 
proposal to be able to get the allies and strategy--the allies 
and partners where we need them to be.
    And our determination was that we were not there yet. So, 
what you will see in this budget is money that we are going to 
use to procure a small number of aircraft from the two 
companies that have been with us so far. We are going to place 
a detachment of those at Nellis Air Force Base, where we do 
conventional training, and detachment of those where we do 
Special Operations at Hurlburt. The United States Marine Corps 
has already said they are joining us. We are going to invite 
allies and partners, and with the authorities you have given us 
now that we own those prototypes, we will continue to 
experiment to build the interoperable network that we have 
already advanced and get allies and partner and bring more 
capabilities to bear so that when we get to 2022 through 2024, 
which is where we have laid procurement money in, we will be 
able to make a smarter acquisition decision.
    And when you compare what we have done, compared to a 
normal timeline for acquisition that would take 5 to 10 years, 
we are 2 years into this and the companies that have been with 
us have been spectacular, and we look procuring a small number 
and taking it to the next step.
    Senator Moran. What are those numbers, both aircraft 
numbers and dollared up numbers?
    General Goldfein. The money that we have laid is $35 
million in 2020. There is about, I believe, $400 million in 
2022 to 2024 for procurement. How much and what we buy depends 
on how the experiment goes, and we are hoping that we will get 
a low-cost point for the ones we want to buy this year with the 
2019 money so we can advance the experiment.
    Senator Moran. I would highlight, General, the importance 
of those turboprops for our allies.
    General Goldfein. Absolutely.
    Senator Moran. The simplicity of our ability to field this 
mission with their assistance.
    General Goldfein. Yes, sir.
    Senator Moran. Or providing them assistance, is related to 
the type of aircraft that is purchased.
    Secretary Wilson. There is only one thing that I would add 
to General Goldfein's comments and that is one other thing we 
are doing this year is getting one of the industry groups to 
really do a good global market analysis for what is the demand 
out there for different kinds of aircraft, manned, unmanned, 
helicopters, turboprop, in some cases turbojet. We know that 
there are countries with F-5s that want to get rid of those. So 
that we really understand what the allies want so that what we 
do enables them to be able to buy something somewhere.
    Senator Moran. Madam Secretary, General, did you do this 
all in the right order? This is the necessity--this is 
necessary for us to be at this point and still making that 
decision, that determination, as compared to earlier in the 
process?
    Secretary Wilson. I am not sure I understand your question.

                          MARKET DETERMINATION

    Senator Moran. Why is it that we are now at this point 
making that market assessment, determining what the market 
should bear, can bear, as compared to making that determination 
prior to the beginning of this process for--we are now at the 
stage in which I thought we would be a procurement. We are 
still at the study stage of trying to determine what we should 
purchase.
    Secretary Wilson. I actually think we are beyond that. We 
are going to be buying aircraft to continue the prototyping and 
experimentation. In the second year of the prototyping and 
experimentation, we were able to put a fully exportable, low-
cost network onto these aircraft so that the tactical air 
controller on the ground can touch an iPad and it shows up in 
the cockpit of the aircraft, so that you are communicating 
among nodes. And we have done it in a way that does not 
require--there is no export controls at all. So, I think we 
have made a lot of progress. I do not think we were ready to 
make a procurement decision, and we decided in particular we 
need to get more of our allies and partners involved in this 
from the get-go or it may not work.
    Senator Moran. Thank you both.
    Senator Shelby. Senator Tester.

                           MALMSTROM FACILITY

    Senator Tester. Thank you, Mr. Chairman. And I want to 
thank you, Secretary Wilson and General Goldfein for being 
here. Thank you for service and thank you to the Airmen that 
you represent, service also. So, in order to maintain the 
effectiveness of our nuclear deterrent, it is your job to 
identify the resources that are required to maintain and 
modernize those nuclear assets. We have been working with the 
Air Force for years to secure funding for a new weapons 
generation facility at Malmstrom.
    Now, the current facility is deteriorating. Giant cracks in 
the walls are getting bigger and I am sure you know that 
because of that, the deteriorating infrastructure has created 
numerous safety and logistical and security challenges, and 
that munitions operations will remain at risk due to 
inefficiencies and failing infrastructure there at Malmstrom. 
We are talking about a facility at which ICBM (intercontinental 
ballistic missile) Warhead are maintained and stored. So, I 
believe, as I think you do, that there is urgency here. 
Secretary Wilson, will this project be included in Air Force 
2020 budget request?
    Secretary Wilson. Senator, the fiscal year 2020 budget does 
include $235 million for the weapons storage facility there at 
Malmstrom. It is based on the design that we used at F.E. 
Warren, although there is a few things that are different, 
including of course labor rates there and also soil conditions. 
So that is a little more expensive, but it is based on the same 
design.
    Senator Tester. That is good. And so, the construction cost 
went from $200 million to $235 million and what was the reason 
for that increase?
    Secretary Wilson. Sir, two things. First of all, labor 
rates are different in Montana compared to Wyoming. And the 
second is there is some differences in the soil, so we have to 
do some differences in the construction.
    Senator Tester. Okay, I have got it. I would have hoped, 
and this is just a side comment, I would hope that the way this 
is being staggered with Wyoming and then in Montana, and North 
Dakota that we would gain some efficiencies there, but it does 
not appear that that is the case.
    Secretary Wilson. We will gain some efficiencies by using 
the same design or the same basic design, but there's a lot of 
things that go into cost, and we put $235 million into the 
budget because we expect that it is going to be more expensive 
for those two reasons.
    Senator Tester. So, if $3.6 billion across all military 
construction accounts to reprogram say for a border wall, then 
I would imagine this project would be further delayed. Is that 
fair?
    Secretary Wilson. Sir, I do not think--this is in the 
fiscal year 2020 proposed President's budget. So, it is not an 
item that has already been----
    Senator Tester. So, if money is pulled out of this year's 
budget, you do not think it would shift twenties down?
    Secretary Wilson. The budget that we have put forward, sir, 
has $235 million for this military construction project.
    Senator Tester. Okay, and so if money was pulled out of 
this year's budget for military construction in this line item, 
it would not shift? We are still in line to have it happen 
regardless of what happens?
    Secretary Wilson. That is my understanding as to how the 
entire Defense Department budget was put together and presented 
to you all yesterday, or Monday.

                     MONTANA NATIONAL GUARD C-130S

    Senator Tester. Ok, that's good if it doesn't happen. I 
would think that if money is not there, it will be back filled 
with the next year's budget. But, I could be wrong on that.
    The Montana National Guard is flying some of the oldest C-
130s in the Air Force. C-130Hs, they have not received all 
their upgrades. There is issues with this, separate schools, 
parts availability, additional training requirements for Pilots 
and maintainers, moving from the J's to the H's. These are all 
challenges for guard units. Flying aircraft is different from 
the Active Duty component, so not to put you on the spot, but 
what is your expectations for the 130Js? And since our 
airplanes in Montana Air Guard have not received all the 
updates as others have, would we be in the queue first?
    General Goldfein. Sir, you know, I mentioned in the opening 
statement that I went to Desert Storm. You know, we learned a 
truly valuable lesson out of Desert Storm because I was flying 
the newest F-16s and the Birmingham International Guard showed 
up at the same base flying the oldest F-4s.
    Senator Tester. Yes.
    General Goldfein. And what we learned when we looked across 
our Active Guard, you know, team was that we had not outfitted 
the guard with the latest technology and our interoperability 
suffered as a result.
    Senator Tester. Bingo.
    General Goldfein. And so, we reversed that coming out of 
Desert Storm and that is why you see us now fielding new 
weapons systems across the Active and the Guard. But when we do 
so, we also take into account that our most experienced 
maintainers and operators are in the International Guard. Very 
often they come from the Active Duty to the National Guard.
    Senator Tester. Sure, that is right.
    General Goldfein. And so, their ability to be able to 
manage weapons systems is somewhat different based in our 
experience levels. So, we do have planned--right now there is 
not additional C-130Js in the budget. We are upgrading the C-
130Hs, and if more money were to become available, the C-130Js 
is something we would definitely look at.
    Senator Tester. Well, I would think that it would be, and I 
know you guys have a lot of priorities. We just talked about 
the missile priorities with the ICBMs. But it would seem to me 
that this would also be a priority. As we all want a strong 
force, there is recruitment opportunities from folks who are 
going out of the Active Military and going into the Guard. And 
if in fact those folks have to go get retrained to fly on 130H 
and we all love Little Rock, Boozman is not here. We all love 
Little Rock, but the truth is that they might decide, I am just 
going to go a different direction then and not stick with it. 
So, I would hope that this could become more of a priority. 
Thank you guys for what you do. Appreciate it.
    General Goldfein. Senator, if I could just say to, again to 
speak to your folks in Montana and elsewhere flying a C-130 and 
I was Air Component Commander and Central Command for 2 years, 
and I never once had to tell one of my joint teammates no when 
it came to delivering critical supplies or personnel where they 
were needed. And we did that with the C-130 fleet.
    Senator Tester. Yes, I got it. It is a great mission. It is 
a great mission, I do not need to tell you how all these planes 
are. Thank you.
    Senator Shelby. Senator Hoeven.

                            HUEY REPLACEMENT

    Senator Hoeven. Thank you, Mr. Chairman and just to follow 
up on Senator Tester's point, the point that you were making 
general for the ICBM fields, they are flying Huey's out there. 
So, and that is your Active Duty forces are flying Huey 
helicopters out in the missile fields. So, when Senator Tester 
talks about the importance of both the facilities and the new 
aircraft for our missileers, you realize it is very important 
when they are flying aircraft that is far older than the people 
flying them--far older.
    Secretary Wilson. Senator, in fact though, I think it was 
in September, September or October we did choose the follow on 
aircraft to replace the Huey's, so that decision was made and 
the fiscal year 2020 budget buys four replacement test 
articles, fiscal year 2020. So, we are beginning replacement of 
the Huey.
    Senator Hoeven. And those aircraft are?
    Secretary Wilson. I am sorry, sir?
    Senator Hoeven. And they are what?
    Secretary Wilson. I never remember the numbers. So, what is 
it?
    Senator Hoeven. UH-60 Black Hawk.
    Secretary Wilson. It is not the 60, but I will----
    Senator Hoeven. Well, that is the right pick.
    [Laughter.]
    Secretary Wilson. I will mess up the number so I will----
    [The information follows:]

    MH-139.

    Senator Hoeven. No, you will not. We are going to really 
miss you. We are disappointed that you are leaving. You have 
done a phenomenal job, and you are going to be dearly missed. 
Hopefully we are going to keep General Goldfein around for a 
good long while yet, but best wishes to you. But we really 
appreciate your service and we will miss you greatly. You have 
been tremendous. How are we doing on catching up on the pilot 
shortage that we talked about?

                             PILOT SHORTAGE

    Secretary Wilson. We have actually in the end of--we looked 
at the numbers at the end of the year. We ended up producing a 
few more pilots than we anticipated and kind of stopped the 
slide. Next year in the fiscal year 2020 budget, we are going 
to increase the number going through pilot training, and we 
hope that our continued efforts at pilot retention and the 
support for pilots trying to reduce the number of 365-day 
overseas tours, trying to give pilots more control, 
implementing our new talent management system so people get 
more say in their next assignment, and more control over their 
lives, that those will help with retention, but we also need to 
increase production. So, it is production, seasoning, and 
retention. If we continue on this path, producing about 1500 
pilots a year, we think we will close the gap and have the 
number of pilots we need by fiscal year 2023, fiscal year 2024 
timeframe.
    Senator Hoeven. Even with the increased commercial airline 
hiring and so forth?
    Secretary Wilson. Yes, sir we do, and part of it is we are 
going to have to produce more pilots. So, we are going to have 
to produce about 1500 pilots a year, rather than about 1100. We 
can do that in a way with our current infrastructure, and then 
we have to really focus on the quality of life, quality of 
service.
    General Goldfein. Senator, I also want to thank you 
because, you know, I have talked a lot about this which is this 
is the national shortage of pilots. To not only in Military 
Aviation but also commercial and business aviation. And so, we 
are also doing incentives to get America's youth flying again. 
Civil Air Patrol, putting money into the Junior ROTC, 
University of North Dakota, other avenues where we are trying 
to get more pilots produced to be able to fulfill the 
requirement across the Nation, and so I just want to thank you 
for your work on that.
    Senator Hoeven. That is appreciated, and I think the reason 
you are starting to make traction or get traction is because 
you are looking at all of these avenues to draw people into the 
pilot ranks and I really commend you for it. Arctic Mission, 
how are we doing on reaching out in the Arctic Mission?

                             ARCTIC MISSION

    General Goldfein. So, we--Secretary Wilson and I have put 
out an Op-Ed on that because the Air Force has got a 
significant footprint in the Arctic Mission. First and 
foremost, in Homeland Defense and making sure that we have the 
assets that are up there that would be able to detect the 
threats so we can protect the homeland. For power projection. 
If you take a look at Alaska, by the time we complete the bid 
for F-35s, it will be the State with the most number of 5th-
gen, high-end assets here that can launch as a platform into 
the Arctic. And it is also about domain awareness. It is about 
making sure that we have the weather forecasting and make sure 
we have the space situational awareness.
    So, we are very heavily invested in the Arctic, and we are 
working right now with our partners, our Arctic partners, 
Canada, Finland, Norway, and Sweden on Arctic challenge 
exercise to ensure that we further advance our military 
capabilities to protect that region.
    Senator Hoeven. Well in North Dakota we speak fluent 
Canadian, so if we can help you, you let us know.
    [Laughter.]

                     MODERNIZATION OF NUCLEAR TRIAD

    Senator Hoeven. Last question I have goes to the nuclear 
triad. It is incredibly important, and we need to update it and 
modernize it. I would like your thoughts in that regard.
    Secretary Wilson. Senator, nuclear weapons and nuclear 
deterrents have helped to keep the peace for over 70 years, and 
the Air Force has two of the three legs of the triad as well as 
about 75 percent of nuclear command, control, and 
communication. Those legs of the triad are in need of 
modernization, both the replacement of the Minuteman Missile, 
but also the replacement of the Cruise Missile. These are 
systems that are, you know, the Minuteman, the first stage of 
the Minuteman that is in silos today was built in 1970. So, we 
need to upgrade these systems and our budget includes the funds 
for the continued work on the modernization of the nuclear 
deterrent, as well as the upgrading of the nuclear command, 
control, and communication.
    Senator Hoeven. And the LRSO, incredibly important for the 
safety of our aircraft fleet and pilots, right, and as we face 
more sophisticated air defense systems?
    General Goldfein. Yes, sir. And of course, it is all in 
support of the strategic, the STRATCOM Commander's mission. And 
I will share with you, sir, that you knew, Secretary Mattis, 
when he first came in from Stanford, he had some serious 
questions about the nuclear enterprise and then to the process 
of our going through the nuclear posture review, he became an 
advocate for all three legs of the triad. And I will share with 
you the same advice I gave him and then gave recently to 
Secretary Shanahan. There are two things that I would advise in 
terms of military advice.
    Number one, I would never advise us to unilaterally disarm 
our nuclear enterprise when our adversaries are arming theirs 
and building more capacity and capability. That makes no sense 
to me that we would ever go down that path. The second advice 
is we should never, and I got to be careful here to stay on 
unclassified terms, but I would never advocate or recommend 
that we place ourselves in a position we would no longer have a 
second strike capability, because potential adversaries are 
calculating whether they can defeat us, and we want them to 
enter into their calculus that we can always respond no matter 
what they do. And with the triad we can.
    Senator Hoeven. Thank you. Again, thank you, Madam 
Secretary, very much.
    Senator Shelby. Thank you, Senator Hoeven. Senator Schatz.

                           WALL CONSTRUCTION

    Senator Schatz. Thank you, Mr. Chairman. Secretary, I want 
to echo the phrase from this panel. You have been an exemplary 
as Secretary of the Air Force and we are going to miss you. You 
have been nonpartisan and bipartisan, easy to work with on the 
level. Really appreciate your service. I want to follow up a 
little bit on what Senator Tester was talking about with 
respect to the way the MILCON $3.6 billion may be raided for 
the purpose of constructing a wall on the southern border of 
the United States. First question I have is has the Secretary 
of Defense or anybody else asked you to begin the work of 
producing a list of projects to delay?
    Secretary Wilson. First of all, we do not have a list of 
projects from Homeland Security that are necessary to support 
the mission along the border, and we have not identified 
specific Air Force projects that could be impacted. And of 
course, as you know, we request our military construction based 
on priority and military need.
    Senator Schatz. I get that Homeland Security has to ask--
that they have to initiate a request and then they have to make 
a determination about where wall being built would be in 
furtherance of the admission of the troops on the border. I get 
that part. After that determination is made, and after there is 
a funding requirement that becomes a delta, the assumption is 
this is going to be $3.6 billion, it may be less. But, I think 
you would be wise to start preparing as you look at your list 
of funded but un-obligated MILCON projects to see how you 
prioritize them and whether or not you can afford to move any 
of those to the right to delay or defund. Has that process 
begun at all?
    Secretary Wilson. We have not identified specific Air Force 
projects that could be impacted.
    Senator Schatz. So that process has not begun?
    Secretary Wilson. And I think, you know, the Secretary, the 
Acting Secretary of Defense has asked his colleague at Homeland 
Security to identify what projects from the Homeland Security's 
perspective are necessary to support the mission.
    Senator Schatz. Right, but that is not the question I am 
asking.
    Secretary Wilson. That would then trigger some guidance, 
presumably from the Second or Secretary of Defense, that we do 
some work as services, but we have not identified specific Air 
Force projects that could be impacted.
    Senator Schatz. Okay. And, so I get it. So, you have not 
done that work yet. And at the time that you do that work, will 
you be transparent with the Congress with respect to your 
criteria for moving stuff to the right or defunding or 
delaying, and will you let us know where you are in the process 
so that it does not become a black box?
    Secretary Wilson. Yes.
    Senator Schatz. Thank you. Is the expectation, let us say 
it is $2 billion that gets raided for MILCON. Is the 
expectation that the Congress then ``backfields the money,'' in 
other words appropriates the money to the same project twice?
    Secretary Wilson. I do not know. And I think part of that 
is we do not know yet what the requirement will be from the 
Department of Homeland Security and how much we are talking 
about here, and whether there is other funds that might be 
reprogrammed. So, I just do not know.
    Senator Schatz. It just seems like this about to be, among 
other things, a fiscal train-wreck because right--Senator 
Tester was talking about his $230 million priority for his home 
State to safely house ICBMs, as I understand it. That is in the 
2020 budget request. So, assuming that everything that the 
Democrats are saying happens to be correct with respect to our 
inclination to so called backfield, in other words to 
appropriate money twice, then whatever falls off your list, if 
Tester's project--if everything that is in the 2020 President's 
budget does not fall off the list, then if it falls off the 
list, it is not actually first in line for the following year. 
It is really falling off a cliff. And I guess the question is, 
among all of the funded but un-obligated MILCON projects for 
the Air Force, is there anything that you see that is not 
essential for readiness?
    Secretary Wilson. We request military construction based on 
priority and military need. Some of it is readiness, some of it 
is just straightforward modernization that you have got to 
house new aircraft and so it is all necessary.
    Senator Schatz. Right. And given that the Department of 
Defense articulated to us that there is $100 billion shortfall 
in MILCON overall, and given that we have always done MILCON on 
a bipartisan basis and that whenever you ask for something, we 
know that it is on the level. My question is very 
straightforward, which is, is there anything on your list that 
you think you do not need?
    Secretary Wilson. No.
    Senator Schatz. Thank you.
    Senator Shelby. Thank you, Senator Schatz. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. And it is a real 
pleasure to join the committee working with you and your very 
capable staff, and Ranking Member Durbin also very capable 
staff. That is the great thing about being on these, you know, 
these subcommittees. It is all about taking care of the 
military in a very, very bipartisan way and we certainly 
appreciate your leadership in that regard. General Goldfein, 
again, thank you so much for all that you do, and not only now 
but have done through your career. Secretary Wilson, it has 
been a real pleasure serving with you in the House, and now 
serving with you now in our different capacities.
    And I know that nobody has worked any harder than you, or 
have, and nobody is any more knowledgeable. And we really do 
appreciate you, again, for the many, many different ways that 
you have served your country. One of the things I would like to 
ask about, you know, we--I think there is concern about light 
attack. You know, Secretary Moran--I am sorry not Secretary, 
Senator Moran, got into that a little bit. I would like to ask 
about the situation despite, you know, a perceived shift. One 
of the requirements that is continued to be highlighted is 
building partner capacity. You mentioned that earlier and 
certainly is something we have all met that comes up all the 
time. Objective in the National Defense strategy, the Guard 
State Partnership Program, is an existing way we can achieve 
the critical mission of building partnership capacity.

                    GUARD STATE PARTNERSHIP PROGRAM

    Assuming that we do move forward with light attack at some 
point, what role do you see the Guard playing and how can the 
Air Force take advantage of these existing State Guard 
partnerships?
    Secretary Wilson. Mr. Senator, I will start out and then 
maybe General Goldfein might want to add. State partnership 
program is a wonderful program and probably we do not talk 
about it enough and the tremendous difference that it makes. It 
is a partnership between State Guards and countries. It was 
started after the fall of, the collapse of the Warsaw Pact and 
the emergence of new democracies in Eastern Europe, but it is 
now expanded where there are 70 different state partnership 
programs.
    And they have a number of advantages, one of which is that 
in many countries the military is much more like the National 
Guard where it has National Defense but also civil society kind 
of functions so more similar to the National Guard. But also, 
their relationships are enduring, and people are in the Guard 
for their entire career and they create deep relationships of 
trust with our partners and allies in other Air Forces. So, I 
think there is tremendous opportunity there with allies and 
partners generally, whether it is in light attack or in other 
things. I will just leave you this one story.
    The Chief and I were in the Middle East and we went to 
Jordan and met with the Air Chief there, and some of you may 
remember that Jordan has F-16s. And some of you may remember 
that one of their pilots had ejected over Isis occupied 
territory in Syria, and was captured, and put in a cage, and 
burned alive, and tortured, Jordanian pilot. The Jordanians 
planned retaliatory strike. That retaliatory strike was led by 
a Major in the Colorado National Guard who was on exchange with 
the Jordanian Air Force. They did not forget that it and it 
deepens a partnership that is career-long. Very useful.
    General Goldfein. Sir, I will just add that, you know, one 
of the first meetings I had in the opening weeks after becoming 
Chief was at the State Department with the Deputy Secretary of 
State. And I had a discussion with him about the role of the 
Internet--my role as International Air Chief when it comes to 
coalition-building and sustainment, and whether there was a 
special partnership that we need to have with the State 
Department because countries around the world that will join 
coalition's and offer military capability have the same 
challenges that we do, sometimes offering boots on the ground. 
And if they do not have access to ports, they do not buy 
Navy's. But one thing most countries have is an air component 
to protect their sovereign borders, so therefore coalitions 
very often come together first in the air and then stay longest 
in the air.
    And so, when we look at the strategy of driving violence 
down across the globe to the point where it can be maintained 
within its borders, you could see why our strategy with light 
attack was to build an interoperable network in a number of--in 
a variety of capabilities that allowed them to join us. And in 
some ways for me it is the air equation of the math on the 
ground in North Africa, 1,000 Americans plus 4,000 French 
enables 35,000 fighters to be able to counter violence in North 
Africa. This is the air component contribution to that.
    Senator Boozman. Very good. Thank you, Mr. Chairman.
    Senator Shelby. Thank you. Senator Baldwin.

                      AIR FORCE MISSION CAPABILITY

    Senator Baldwin. Thank you, Mr. Chairman. In October, 
Secretary of Defense, former Secretary of Defense Mattis 
ordered that the Air Force get to 80 percent mission-capable 
rates for its fighters. I would like to hear from you where the 
Air Force is at this point in meeting that goal, and since the 
directive came after you had received your 2019 budget, how 
much money will it cost this year to meet that goal?
    Secretary Wilson. Senator, we have identified reprogramming 
that has to be done within the Air Force budget, particularly 
for the F-22s and F-16s, and we are focused on the operational 
squadrons where we measure our mission capability rates most 
directly. I believe that we are probably going to meet that 
objective with the F-16s. Given the impact of the hurricane on 
the F-22s in Tyndall Air Force Base and all of the permanent 
change-of-station moves associated with moving those F-22s, we 
may not make it with the F-22s, but we do have to do the 
reprogramming to get more money into weapon system sustainment 
for the F-16 and the F-22 within the Air Force budget.
    The responsibility for the funding for the sustained the F-
35s goes to the Joint Program Office and they manage that. I 
can give you privately in a secure session the actual numbers 
of where we are in both mission, capable rates, and also we 
monitor not just mission capable rates of just about whether 
the airplanes are ready to fly. An airplane sitting on a hangar 
that is ready to fly is not necessarily ready to fight, and so 
for us it is about the readiness of our squadrons to fly and 
fight that matters.
    Senator Baldwin. Okay. So, meeting this readiness goal 
along with the modernization that we had a chance to discuss 
earlier, things like the F-16 radar systems so that they can 
operate alongside the next generation fighters, is particularly 
important in a State like Wisconsin that has F-16s at Truax and 
is a future site for F-35s. But it is also my understanding 
that the Air Force has had trouble funding some really basic 
base operations, road maintenance, garbage collection, basic 
repair and modernization of facilities on installations, and 
has embarked on, I know this committee has discussed earlier, 
an ambitious plan to replace its missile defense satellites, 
which also requires increased funding.
    So, I imagine there are more items on the list that I have 
not even gotten to, but I would ask what are the Air Force's 
top 2 or 3 readiness gaps that you would like to see addressed?

                        AIR FORCE READINESS GAPS

    General Goldfein. Ma'am, I will just start by telling you 
that for the Secretary and me, greatness first and foremost is 
about people. And so that is why you have seen us in a 
continual growth of manpower, Active Guard, reserve, civilian 
in strength, so we can rebuild the Force from that--we talked 
about the 945,000 that we were back in 1991 to defeat a rogue 
nation into the 685,000 we have. So, we have to fill our 
squadrons to make sure that they are capable fighting 
formations. We were very successful this year of closing the 
gap on maintainers. We were 4,000 maintainers short and we 
successfully have closed that.
    Now our challenge we are working through right now is they 
are young, and so while we have the numbers we need, now we 
need to experience them. So, we are looking at how we do that 
more rapidly. You brought up the roads and grounds and making 
sure, you know, we are a land-based Force and we fight from our 
bases. And so therefore we are putting a significant amount of 
effort into not only how we sustain those bases, but also bases 
forward that we would roll in on as the hold Force, because if 
you look at the Combatant Commander plans, they expect the air 
component to arrive first by virtue of the fact that we can fly 
there quickly, halting enemy activity before we go forward.
    Senator Baldwin. I agree that these are really important to 
address. I am aware that the Department of Defense has only 
authorized to transfer up to $4 billion dollars annually within 
its own accounts, and with much of that being planned to be 
used up by transferring money between accounts to pay for the 
wall, I am not sure how all of these gaps and more will be 
addressed. And so, as we are looking to conduct oversight on 
both readiness funding as well as how the Department of Defense 
is able to move these funds around, could you tell the 
committee which readiness gap should be delayed, and which ones 
are not priorities right now?
    Secretary Wilson. Senator, the reprogramming that we need, 
we can give you chapter and verse on what is required in order 
to meet the mission-capable rates that we have been guided to 
work towards, and I think there is one reprogramming request, I 
believe, that has already come up to the Hill, although it may 
be just on the verge of coming up here but will be able to 
explain that in detail.
    [The information follows:]

    At the time of the hearing, the reprogramming request had not been 
submitted to the Hill.

    Secretary Wilson. But to meet the guidance that says we 
need to get to 80 percent mission-capable rates, we do have to 
do reprogramming, because the guidance came down in this fiscal 
year.
    Senator Shelby. Thank you, Senator. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Secretary Wilson, 
let me add my voice to those of others who have thanked you for 
your extraordinary service. As Secretary of the Air Force, you 
truly have done an amazing job on everything from procurement, 
to morale, to recruitment, to readiness. I cannot think of 
anyone better, and I am very sad that you are leaving. You can 
still tell them no in El Paso. Maybe you cannot, but I just 
wanted to start off by thanking you and wishing you well.

                    REFUELING WING IN BANGOR, MAINE

    The air refueling wing in Bangor, Maine, which I did not 
get an opportunity to bring you to visit so I am hoping the 
General will make up for that, has long been a workhorse unit 
for the Air Force. It typically supports more than 1,000 
transient aircraft annually.
    In addition, it continues to deploy personnel at very high 
rates worldwide. The wing's enormous workload is demonstrated 
by the fact that it has processes twice as many gallons of fuel 
as the average Air National Guard refueling wing, and its 
strategic location obviously makes it absolutely critical. What 
are we doing to make sure that a workhorse unit like this 
refueling wing has the resources it needs at a time when it is 
filled deploying individuals at a great rate, General?
    General Goldfein. Ma'am, I will tell you that having been 
pulled out of a lot of really bad places by some courageous 
tanker crews, many of which I am sure are at Bangor, I would 
not be sitting here had it not been for the courage of those 
crews. So, as we recapitalize the tanker force, I go back to, 
you know, it has being in a world of pure competition. Those 
three phone calls that I will get as Chief, the Secretary will 
get, that says the Combatant Commander, let's say in EUCOM 
needs tankers. The Stratcom Commander to be able to support the 
nuclear mission needs tankers. The Northcom Commander to be 
able to defend the homeland, needs tankers. These are 
simultaneous, no fail missions. Therein lies why we do see the 
investment in the KC-46 and sustainment of the tankers that we 
have so we can get to the 479 required that we will do in 2019, 
to ensure that we have the tanker force required to do the 
Nation's business. And I would just say, I believe that we are 
a global force, a global power, because of global reach and it 
is our tankers that give us that.
    Senator Collins. Thank you.
    Secretary Wilson. Senator, if I could just add one brief 
thing. The study that we did that was directed by the Congress, 
that came really from the hearings last year when you all asked 
us, you know, you always come up, we always come up and present 
the Air Force we can afford given the budget that we have, and 
you asked us, well what is the Air Force we need to execute the 
National Defense Strategy. And that led to a piece of work that 
you all directed that is ready to come up in classified form, 
but we released and unclassified summary and it is no big 
surprise to anyone that the Air Force we need is larger than 
the Air Force we have. One of the biggest areas of unmet need, 
particularly by the time we get to the 2025, 2030 timeframe, is 
in tankers.

                              F-15 V. F-35

    Senator Collins. Thank you. Secretary Wilson, in what seems 
like a major change of direction, the budget request new F-15 
fighter jets which have not been purchased by the Department of 
Defense since 2001. If you were not constraints by an 
inadequate budget, would your preference be for more F-35s?
    Secretary Wilson. If the budget is unconstrained, there are 
a lot of things I can think of----
    [Laughter.]
    Secretary Wilson [continuing]: That would be----
    Senator Collins. But in terms of capability that the F-35 
gives you?
    Secretary Wilson. Let me talk a little bit about this or 
Chief do you want to lead, or do you want----
    General Goldfein. I will just say, ma'am, that very often 
we throw the terms 4th generation and 5th generation around and 
if I could just take a couple of minutes and explain the 
importance of what 5th generation means and the F-35's role in 
that. Because, you know, we will sometimes present charts that 
show, you know, this red dome over countries so they can put a 
block of wood over themselves to protect themselves that is 
actually not accurate.
    The best a country can do today is a block of swiss cheese. 
There are holes there and it is our job in the Air Force to 
know where they are, exploit them, and get in. And when we get 
in, it is with a penetrating joint team. We are there in space. 
We are there with High-Altitude ISR. We are there with B-21. We 
are there with F-22. We are there with F-35. We are there with 
our joint teammates, with submarines. We are there with special 
operations. If I can, you know, send a message to any of our 
adversaries, whoever sees an F-35, it would be we are here. Not 
I am here, we are here, because the F-35 will never be alone. 
But what the F-35 brings is not the traditional fighter 
characteristics that we always think about. It is the 
information fusion from multiple sources that comes together in 
the cockpit and allows that F-35 to be the quarterback of the 
penetrating team.
    And there is no other weapon system that we design that can 
do that role, and in that role, it is performing spectacularly. 
Our challenge was that when you look at the force structure 
there are four 4th-gen airplanes, F-16, F-15E, A-10, and F-15C, 
that we need to fly into 2030s. The F-15C is not going to make 
it. It is old and it is not going to fly past the mid-20s, and 
we need that capacity to do all the missions I laid out for you 
in my opening statement.
    And so, where we find ourselves is in a position where we 
have got to buy 72 aircraft a year to be able to reverse the 
historical trends, and the F-15C is going to retire. We use the 
best cost estimate that we had at the time and looked at the 
various options and the most affordable option, as long as we 
keep the F-35 absolutely on track with our program of record, 
was to look at an F-15 variant to replace the F-15C. And so 
that is why we are looking at that. It is one line of 4th-gen 
to keep that mix right. But an F-15 will never be an F-35.
    Senator Collins. Thank you, Mr. Chairman. I have some more 
questions that I would like to submit for the record if I may.
    Senator Shelby. Thank you, Senator Collins. You can do 
that. Senator Udall.
    Senator Udall. Thank you very much, Chairman Shelby. 
Secretary Wilson, I would also like to echo what others have 
said here and thank you for your service to the Nation and to 
the United States Air Force during your distinguished career. 
And I would like to congratulate you on your upcoming career 
opportunity at UTEP. That is still staying close to New Mexico, 
so I am sure you will enjoy that. And we are going to miss your 
leadership at the Pentagon.

                           PFAS CONTAMINATION

    Madam Secretary, as you are aware, an epidemic of PFAS 
(polyfluoroalkyl substances) contamination is infecting 
communities adjacent to Air Force bases all over the country 
and I know the General is familiar with this too. Families, 
business owners, farmers, and service members who have suffered 
from exposure to these toxic chemicals in New Mexico deserve 
immediate relief, and the Air Force must take precautionary 
steps to prevent further dangerous to public health. In 
response, myself, Senator Heinrich, and Representative Lujan 
are pressing the Environmental Protection Agency and the 
Department of Defense through the newly introduced legislation 
to coordinate closely with the State of New Mexico to move 
forward with remediation plans to clean up contaminated sites 
and take all necessary steps to prevent further risk to public 
health.
    We have made sure to keep the Air Force informed as we have 
worked on this issue. The Air Force has asserted that it does 
not have legal authority under the law to provide clean water 
or filtration for agriculture. Is that your understanding of 
current authority?
    Secretary Wilson. Yes, Senator Udall. That is correct. We 
have authority to provide clean water to people, but not for 
agricultural use under the current law.
    Senator Udall. And our bill provides that authority. It 
moves further than you believe you have authority for. Is the 
Air Force prepared to work with us to find a way to ensure that 
they have the authority?
    Secretary Wilson. Senator, we will work with you on that 
legislation and also there is a very broad coalition of people 
concerned with this issue and if I could--because it affects 
them. What we are talking about here is a chemical that was 
safe for its intended use at the time it was used. It is called 
PFAS and PFOS. It was used in firefighting foam by the Air 
Force, but less than 3 percent of this chemical was sold to 
firefighting foam companies. It is used in wrappers on fast 
food. It is used for waterproofing on shoes. It is used in 
Teflon coating on pans. So, it is used in a lot of different 
things and it is now an emerging potential pollutant.
    And the Air Force leaned forward and identified, looked at 
all of our sites as to where it might be and began the process 
of assessing whether there was any impact to the water and 
taking mitigating actions. So, I think those are all the 
services to really lean forward and do that, I think it was the 
responsible thing to do. But we also need to recognize this as 
a national issue and a problem, and probably is going to 
involve not just the EPA and the Department of Defense, but 
Agriculture, Health and Human Services. This is a--this is a 
major issue for the country of which the Air Force is just one 
small piece.
    Senator Udall. You know, and just to elaborate on that, I 
mean this is a toxic chemical, and what has happened in New 
Mexico near Cannon is with the firefighting activities, the 
PFAS chemical with large quantities of this has polluted the 
aquifer, it has poisoned people. I have a farmer that is gone 
and taken specifically from his blood and from the blood of his 
wife to see. They have a very high levels of PFAS in their 
blood. He is about ready to kill 4,000 cows because he has no 
way through filtration, which I asked you about. The cows, he 
cannot sell them. It could impact an even larger area, which is 
all dairy farmers.
    So, we are at the point of the spear on this. I mean New 
Mexico and this base. You have poisoned people, you poisoned 
agriculture, you poisoned the aquifer, and you poisoned the 
feed that is raised for the farmers also has PFAS. So, we would 
hope that you would be very, very aggressive about dealing with 
this issue. We have been very frustrated with dealing with the 
Air Force on this because you say you have the--wanted to have 
the authority. We gave you legislation in November 27th. Your 
response, which I would ask that response be put in the Record. 
Consent to do that, Mr. Chairman. The response be put in the 
Record.
    Senator Shelby. Without objection.
    Senator Udall. You have basically responded with something 
that was not very helpful and basically says we do not want to 
have the authority to do that. We sent revisions back to you on 
February 14th and so March the 6th we introduced our bill. So, 
our sense is the Air Force is not moving aggressively like it 
should be moving, and I would like to know whether you believe 
that you are going to take the authority and get the bull by 
the horns. And, you know, you say here you want to have 
authority. Well, support the bill. Will you support our bill? 
Tell me today, will you support our bill so that we can move 
forward and correct these things? General why don't you start.
    Secretary Wilson. Senator, we have dozens of sites around 
the country where this is an issue. It is a particular issue 
with Cannon where we not only--when we have the authority to 
provide clean water immediately and also prevent any additional 
damage to the aquifer when it has to do with people. We do not 
have the authority to deal with agriculture. To his credit, our 
Assistant Secretary for Insulations and Environment has led the 
effort in the Executive Branch to engage the Secretary of 
Agriculture, the EPA, and Health and Human Services to see 
whether they have authorities to be able to deal with the 
agriculture issues. And as you know and we have been, all of us 
have been concerned and frustrated by this, that there is no 
standard for agriculture as well. So, it is an extremely 
difficult situation. We are doing the best we can with the 
authorities that we have, but it is a national problem, and 
there is a coalition of members, some of whom are on this 
committee as well, who are facing this issue.
    Senator Udall. Well, have you all reviewed our legislation, 
and will you support it?
    Secretary Wilson. Senator, I have not seen your draft 
legislation.
    Senator Udall. Okay, well we have been sharing it with you 
over the course of 3 months. And I think you knew this was what 
I was going to ask about, so I am very disappointed as to where 
we are today. And we can put it in all sorts of fancy words, 
but the reality is of this one farmer and many farmers that are 
in the region is the Air Force has poisoned his family, they 
poisoned his livestock, they poisoned his water, and they 
poisoned his crops. And we would expect under those 
circumstances that the Air Force be very aggressive about 
supporting legislation and doing all you can to make sure this 
contamination does not spread further, and to take care and 
make the people whole that have been hurt already. Thank you 
very much, Mr. Chairman.
    Senator Shelby. Thank you, Senator. Senator Blunt.
    Senator Blunt. Thank you, Chairman and Secretary let me 
join everybody else in telling you how much we appreciate the 
leadership you have shown, the work you have done, and our long 
friendship, over 20 years now, has really always been important 
to me. I have always had great confidence in the decisions you 
would make in any job and particularly in this job. I am going 
to come back to you in a minute and ask a little bit about 
military families, things like the Military Family Flexibility 
Act, the importance of military families as it relates to that 
highly skilled technical workforce that you have in the Air 
Force today. Let me ask a couple of follow-up equipment 
questions to General Goldfein.

                              F-15 ISSUES

    On the F-15 issue really two questions. One is, the F-15 is 
a compliment to the F-35 is the future and the current and even 
foreseeable future flying package, and then the other one you 
mentioned a variation of the F-15, was that the F-15 PX or--so 
do you want to talk about that just a little bit more?
    General Goldfein. Yes, sir. I would say that the F-15 like 
all the 4th generation standoff bomber, any standoff capability 
is complementary to that which is capable of penetrating. And 
so, we look at it from a network team approach in the future of 
warfare and I cannot overemphasize the importance of this. This 
is why we took on the joint stars to advance battle management 
system debate last year and why this is so important because 
this is about the future of war fighting and how we move into a 
network centric approach as opposed to a platform centric 
approach. So, it is again why the F-35 does not fly alone, the 
F-15 does not fly alone, they always fly as part of a joint 
family and with allies and partners. So complimentary, yes, but 
it is more than just the F-15 and the F-35.
    Senator Blunt. And what is the F-15 PX add to the F-15?
    General Goldfein. What it does in terms of cost, is when we 
looked at, again the cost estimates that came from OSD/CAPE. 
When we were looking at the requirement for us to buy capacity 
to do all the missions that we were required to do, and they 
looked at the overall cost--you get a look at the cost, not 
with the procurement but the cost of operating over time. And 
we looked at the overall operating cost, the F-15. You have 
also got to look at the conversion cost, if you go from F-15C 
to a different kind of airplane versus an F-15C to a like model 
airplane where 90 percent of the parts are common, where you 
can do local training for the operators and maintenance, and it 
is about a $10 million conversion costs for aircraft that we 
cannot fly any longer.
    So that is part of the cost that was put into the equation. 
The previous question was about combat capability, and that is 
why I wanted to stress that. When it comes to combat capability 
of the F-35 and the F-15, the F-15 will never be the F-35. It 
was not designed to be.
    Senator Blunt. And it does not cost nearly as much?
    General Goldfein. Based on the best cost estimates that we 
had at the time, it does not cost as much over the lifetime of 
the weapon system. We have been very clear with both the Joint 
Program Office and the company that we have got to drive the 
operating cost of the F-35 down. And so were those numbers to 
change, then we would have to relook at it.

                          C-130S AT ROSECRANS

    Senator Blunt. Thank you, General. I might have a couple of 
questions for the record on equipment, particularly of C-130s 
at Rosecrans, but let us suppose talk a little about military 
families and what we can do and are doing to make them more 
appreciated in the package that the military serving person 
puts together.
    Secretary Wilson. Senator, there is a couple things that--
all three Service Secretaries sent a letter to their Governors 
talking about the things that matter to our families. And if 
you ask an Airman what really matters to you most, they will go 
anywhere or do anything as long as their families are taken 
care of. And one of those things where we need help from local 
communities and from States, is the quality of the public 
schools near the bases where we are stationed.
    And a second is reciprocity of licensure for family members 
who are assigned in your State. So, and that is a tough one 
because, you know, there is all kinds of boards and commissions 
over the realtors and the bankers and the lawyers and the 
cosmetologists, and we understand that, but if you move from 
Massachusetts to Missouri and you are a family therapist and 
you have to wait 18 months to get certified in Missouri, then 
it is a real problem.
    So those two things can really make your State a State of 
preference, if we can have great public schools and reciprocity 
of licensure for family members.
    Senator Blunt. Great, thank you.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman. 
Secretary, I want to add my congratulations or condolences in 
your new job. No, congratulations but we are going to miss you. 
And I think they are very fortunate to have you down there. And 
you and General Goldfein, I really appreciate the time you 
spent with me at the Capitol the other day. Mr. Chairman, you 
know that modest office I have there in the Capitol, we spent 
some time going over the problems of the world.
    Senator Shelby. It was something too.
    Senator Leahy. We have, and in fact, I bragged about your 
work when they were there.

                             CYBERSECURITY

    You know, Madam Secretary, we talked before about 
cybersecurity. I am more concerned about something--all our 
grids closed down, we do not know who did--than I am more about 
a missile fired, because a missile comes with a return address. 
And I think anybody firing a missile knows that whoever comes 
for us is going to be obliterated in a matter of minutes. But 
cybersecurity in the commercial side, the defense side, closed 
down our power grid in the middle of January in the Northeast, 
things like that, and we do not know where it came from. And I 
know you have worked hard to get cyber specialists. But then, 
you have to work hard to retain them.
    And this may sound parochial and it is, but Norwich 
University in Vermont, in the senior military colleges--this is 
the oldest private military college. They have an extensive 
cyber program. One of the most popular is the Air Force 
specialty codes and that is someone going into the Air Force, 
and that is second only to flying. So, do you agree that 
whether in Vermont or anywhere else, colleges and universities 
like Norwich should give the Air Force ability to recruit based 
on what they have done?
    Secretary Wilson. Senator, Norwich is a good example of 
that where we are trying to partner with universities and 
communities to develop cyber talent through our universities, 
and then benefit from it. One of the other things and I think 
of your folks in Norwich will probably talk to you a little 
about it, we are actually expanding our Language Enabled 
Airman's Program to include not just the ability to speak 
Spanish or Tagalog or something, but also to include computer 
languages and recognizing that as a special skill that we can 
compensate our Airmen for just like we compensated for a second 
foreign language, if you will.

                           F-35 IN BURLINGTON

    Senator Leahy. Thank you, Madam Secretary. That is helpful 
whatever it is. These young people want to get the skill, but 
secondly, they learn that being in the military can be 
something worthwhile. And General Goldfein, we talked about the 
Vermont National Guard, the Air Guard, F-35 is arriving in 
Burlington this fall. A lot different than any aircraft that 
has been flown up there, or anywhere else. Its connectivity, 
its use of data. They are going to need considerable training. 
How do you determine what kind of funding goes to that kind of 
unit with a new aircraft like that because of the training, 
because of all the cyber background?
    General Goldfein. Sir, there is a process we go through 
that's a formal basing process that looks at and actually score 
against the cost associated with bedding down new weapons 
system, and so that was done. And obviously Burlington scored 
very well. That is why we are bringing the F-35 there. So, 
those costs are factored into the bed down, and then we roll 
them into our normal training pipeline to ensure that we are 
bringing that capability to bear. And, you and I discussed that 
the unit we are talking about, 24 hours after they deployed to 
Iraq were dropping bombs on the enemy, and had one of our top 
records for the munitions expended during their timeframe. 
That's a hell of a unit. I'm looking forward to seeing them get 
the F-35.
    Senator Leahy. Thank you. They believe when we say service, 
it means service. And, last, I would look carefully at $42 
billion your budget is designated OCO (Overseas Contingency 
Operation), triple last year's level. We can talk about this 
more, but try to ween off OCO. It is a gimmick and it makes it 
difficult for those of us who is really trying to get us all a 
budget. Thank you for what you said.
    General Goldfein. Sir, if I could perhaps just use a moment 
to speak to our Guard Reserve Cyber Airman because you brought 
a great point in terms of how we retain talent. There is a 
great story that General John Hyten tells. He pulled into a 
parking spot in Joint Base Lewis-McChord and a young Airman, 
senior Airman in a Tesla pulled up next to him. And he called 
him out, he says, hey Airman come over here. He says, so you 
have your parents' car or what have you got here. No sir, he 
says, this is my car. He says, well how does an Airman afford a 
Tesla. He said well I am doing my weekend drill duty but when I 
do not do this, I am one of the directors of security at 
Google. And so, one might ask the question, why would someone 
who has that kind of income put on a uniform of the United 
States Air Force and come to work on a weekend. And his answer 
is because he wants to make a difference and that is what we 
offer. And so, to all those out there who are in the cyber 
business, we have a place for you.
    Senator Leahy. Thank you, General. Makes me proud. I know 
it must make you proud. Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and General 
thank you for your service, your leadership. You are clearly 
making a difference. And to you Secretary Wilson, just my deep 
and genuine thanks for your leadership, for your voice of 
reason, and calmness, and just, professionalism throughout. 
What you have added to this Administration is greatly 
appreciated and will be deeply missed. I think it is great to 
have all of us saying this, I do wish that we could influence 
the decision but respect that decision that you have made but 
your contribution is just greatly and deeply appreciated. Thank 
you so very much, and I thank you for the conversation that we 
had last week. My opportunity to share some of the issues and 
concerns that I had. You heard me out on my concerns with the 
Space Force and we had some discussion about the F-35s. I 
appreciate General Goldfein, your explanation here as to how 
the F-15 4th generation, F-35, your swiss cheese analogy, that 
kind of helps somebody appreciate where this might fit in 
because I have been concerned that this might be a dilution of 
the support towards this 5th generation fleet with our F-35s.
    So, I appreciate that, and I also thank you Secretary so 
much for your continued reminder that we can do so much more 
from the State's perspective to assist our Airmen and their 
families, with a focus on schools and what we do with the 
licensure. We are making a little bit of headway on the 
licensure side of that in my State, but it is a great reminder 
for all of us because it is these differences that do keep our 
families in the Air Force, in our services and there. And so, 
it is appreciated. I wanted to speak to JPARC (Joint Pacific 
Alaska Range Complex) as well as the efforts that we have with 
training, and I note with some appreciation that the posture 
statement that you presented this morning identifies JPARC as 
one of the regions that is going to receive the targeted 
funding. I think we recognize the extraordinary asset that we 
have with that training range up North. The posture statement 
also speaks to the need to build additional capacity with 
adversary air with the aggressor.
    I understand the current Fleet of 18 primary assigned F-16 
aggressor aircraft at Eielson is insufficient. We have had a 
chance to talk a little bit about this, Madam Secretary. So, I 
am told that an additional 6 F-16s are immediately needed to 
support the Aggressor Mission and that more can be useful or 
needed.

                           AIR FORCE POSTURE

    So, the question to both of you this morning is with 
regards to the need for additional support on the Aggressor 
squadron, can the Air Force fulfill this requirement? I think 
we recognize that when we have this extraordinary training 
capacity up there, that the ultimate training is when you can 
get that that hands-on, in the air with the actual aggressor. 
So broadly to the issue of JPARC but more specific to the 
adequacy of the aggressors?
    General Goldfein. Yes, ma'am. You know it is something we 
do not talk about a lot in terms of JPARC, but you know, this 
is very often we have international partners who either cannot 
get into Nellis for our red flag or prefer to do something of 
lower visibility. And so, they can go in and they can plan this 
incredible range, one of the largest range we have at JPARC. 
So, we do have money in the budget, $8 million to upgrade the 
threats simulators as we go forward. And it is our premier 
range for doing that. When it comes to aggressors, we are 
actually short on aggressors both at local training, home 
station, and in our two large ranges, both Nellis Air Force 
Base, and JPARC in Alaska.
    The way we are getting after it is a combination of what we 
call organic, F-16s that we own and a contract adversary--and 
there are more and more companies that are getting in the 
business of providing contract. We are also working with the 
Navy who uses that as well, so I think what you are going to 
see is us continuing to push for this right combination, the 
sweet spot, between contract and organic to get at the 
adversary issue.
    Secretary Wilson. If I could just add, one of the things I 
was out in Utah at Hill Air Force Base, of course I flew with 
the aggressors to see JPARC when I was up in Alaska but one of 
the things that the F-35 pilot mentioned to me was, it would 
really help their training and readiness to reduce the 
requirement to fly adversary air. So, we are using U.S. pilots 
to study adversary tactics and pretend to be the bad guys when 
maybe we can do that with contractors so that our pilots, who 
really would go in to fight for the United States, can focus on 
practicing their skills rather than just imitating. And I 
thought that was a good point and it is the reason why we are 
shifting to see whether we can do more contracted adversary 
air.

                       ARCTIC CHALLENGE EXERCISE

    Senator Murkowski. Great. I appreciate that. I know Senator 
Baldwin wanted to ask one more question. Let me just very 
quickly ask and you responded to Senator Hoeven's question 
about the Arctic and you mentioned the Arctic challenge 
exercise that will involve Alaska, Canada, and Sweden. 
Obviously these exercises are critically important. I always 
ask the question at any of these Appropriations hearings to 
just ensure that we are keeping our eyes on the Arctic, and 
sometimes it seems that the Air Force in Alaska is more Pacific 
facing than Arctic facing.
    And so, when you say what you have shared today, that is 
comforting, it is good, it is necessary, but it is one thing to 
do the training exercises and another thing to make sure that 
we are making the kinds of investments that we need to address 
emerging defense challenges in the Arctic, recognizing that it 
is just a different environment up there. Are you satisfied 
with where we are?
    General Goldfein. Ma'am, I am satisfied, but I will tell 
you that this is an opportunity to highlight the important 
partnership we have with Canada in NORAD and we can defend our 
homeland together just as we have for, you know, six decades. 
And so, as Canada modernizes and we modernize, we being able to 
be interoperable in both 5th generation and 4th generation is 
absolutely essential as we go forward.
    Senator Murkowski. Madam Secretary.
    Secretary Wilson. I would just say, one of the things that, 
you know, people think about the Arctic strategy from a naval 
point of view, and of course the Navy is ship-based, but the 
majority of Defense Department infrastructure in the Arctic is 
United States Air Force. And then we have to know the domain, 
so that is about the kind of intelligence surveillance and 
reconnaissance missions there, the missile warning missions, 
which are really focused about the threat that could--and 
historically that is where we put the ballistic missile early-
warning radars because of the threat coming potentially from 
that direction.
    So there have been a number of upgrades that we have done 
there, both at Clear, Alaska and also at Thule, and the 
deepening partnership with our allies who are Arctic allies, 
Danes, the Swedes, the Norwegians, Finland and of course 
Canada, are going to be invaluable going forward.
    Senator Murkowski [presiding]. We appreciate the eye on the 
Arctic because we know it is being viewed by others perhaps in 
different lands, and we need to be ever aware. So again, thank 
you both. I will turn to Senator Baldwin for an additional 
question.
    Senator Baldwin. Thank you. Secretary Wilson, I too want to 
add my words of thanks for your service and that we will miss 
you and I have enjoyed our work together since our days on the 
Energy and Commerce committee back in the House of 
Representatives, through to your service as Secretary of the 
Air Force. I do not know if anyone else on the committee has 
covered Space Force yet, but I did want to ask a couple of 
questions.

                              SPACE FORCE

    I know that the Department of Defense and the Air Force 
have spent a great deal of energy responding to the President's 
directions for the creation of a Space Force, and I am going to 
withhold judgment until I see the proposal sent over by the 
Department of Defense. But one thing I do not have to withhold 
judgment on is one thing that I hope we all agree on that the 
Air Force ought to be working on lowering the cost of access to 
space and space launch. So, I have a couple of questions along 
those lines. The Air Force buys launch as a service, am I 
correct?
    Secretary Wilson. That is correct.
    Senator Baldwin. And even though launch is bought as a 
service, the Air Force still invests in advancing the state of, 
art of rocket propulsion technology, is that correct?
    Secretary Wilson. Yes.
    Senator Baldwin. Okay and to break the habit of using 
Russian engines, the Air Force has invested considerably over 
the last decade to mature and advance American made Stage 1 
engine technology?
    Secretary Wilson. Correct.
    Senator Baldwin. Okay. What has the Air Force done to 
advance Stage 2, also called Upper Stage Engine Technology?
    Secretary Wilson. I will probably have to get back to you 
on specifics on Upper Stage.
    Senator Baldwin. Okay. And as you get back to me on that, I 
am wanting to be made more aware of the progress being made by 
the Air Force Research Laboratory's rocket propulsion 
directorate, and I would appreciate learning what is happening 
there because this committee has appropriated additional 
funding in recent years to support the AFRL's efforts, and we 
certainly want to be looking at the results of those efforts as 
we appropriate for fiscal year 2020.
    Secretary Wilson. Very happy to, and one of the things we 
are doing in space is and I think we benefited more in space 
than in any other element of our mission in trying to drive 
acquisition faster and smarter. And we have a Space Enterprise 
Consortium out of Space and Missile Systems Center in 
California that has now, I think, 274 companies in it. About 
three-quarters of them are highly innovative companies that 
have not done business traditionally with the Defense 
Department. And our average time to get a contract from request 
for proposal to contract award is 90 days in the Consortium.
    So, we are driving forward very aggressively to buy things 
faster and smarter and leverage commercial space. Chief, did 
you want to----
    General Goldfein. Yes, ma'am. I want to just give, perhaps 
a minute, on a warfighter's perspective on space and where we 
are headed. So, from 2011 through 2013, I was deployed forward 
as the Air Component Commander in Central Command, and one of 
my responsibilities was to be the space coordinating authority.
    And so, my job was to ensure that I understood all the 
space capabilities that were available to be applied against an 
active campaign in Central Command. And I want to give the 
Administration credit because during that timeframe, I could 
not say the word space and war-fighting in the same sentence. 
Today, based on the President's declaration that space is a 
war-fighting domain and it is not good enough for us just to be 
there, we have to dominate. We are having an active dialogue, a 
very healthy discussion about space as a war-fighting domain. 
And the Secretary laid out the problem statement. I would offer 
going forward that there are three lines of effort that we are 
working on.
    Number one, we have to defend what we have in space because 
it is going to be there for a while, and we all depend on it. 
But number two, it is not good enough to just step into the 
ring and take hits. At some point you got to be able to punch 
back and so we have got to be able to develop that capability 
and fill it quickly so we stay ahead of the adversary. And the 
third piece that we want to make sure we stay focused on us 
building a Force that can fight and win, because space has been 
a benign domain and so as we have a lot of efforts going 
forward in the Air Force to ensure that we are developing the 
cadre of space warriors to be able to do what the Nation 
requires us to do.
    So, from a warfighter's perspective, the most important 
action going forward that I hope we can do this year is to 
stand-up a Combatant Commander for space, because it normalizes 
space war-fighting for us and us as a Department then know how 
to act.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murkowski. Thank you, Senator. So, there are no 
more questions for the witnesses. We thank you both. We 
appreciate your appearance before the committee. Senators will 
have an additional--well it does not say how long they can 
submit additional written questions. But when those are 
submitted, we would ask that you respond to them within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Dr. Heather Wilson
            Questions Submitted by Senator Susan M. Collins
    Question. What is your best estimate of the cost of a new F-15 
combat equipped aircraft? (OPR: SAF/AQ)
    Answer. The F-15EX estimated fly-away cost is approximately $80.3 
million.
    Question. My understanding is that Luke and Hill Air Force bases 
are doing some innovative things to reduce maintenance and operating 
costs of the F-35, and industry has a goal for the F-35 to be $25,000 
cost per flying hour by 2025--is that on par or less than some F-15s 
flying today? (OPR: SAF/FMBP)
    Answer. While the industry has a goal for the F-35's Cost Per 
Flying Hour (CPFH) to be $25,000 by 2025, according to the latest cost 
estimates by OSD CAPE, the estimated CPFH for Then Year 2020 (TY20) are 
as follows:
  --F-35: $39,000
  --F-15EX: $29,000
  --F-15C: $34,000
    Question. What analysis or competition was performed that called 
for the purchase of new fourth-generation F-15's in the budget? (OPR: 
AF/A8)
    Answer. Analysis shows that we must procure 72 fighter aircraft a 
year to account for aging aircraft retirements and to meet National 
Defense Strategy and Operations Plans assigned missions. Air Force 
analysis and fiscal reality combined with the global missions of the 
Air Force demand a mix of 4th and 5th generation force structure to 
balance near and mid-term readiness with future needs. Procuring F-15EX 
aircraft leverages partner investments in 4th generation modernization, 
an existing production line, uses existing infrastructure, and 
minimizes conversion downtime for F-15 operators and maintainers. The 
F-15EX will help us improve fighter aircraft capacity at a cost we 
estimate to be 10 percent cheaper than the F-35A to procure and 35-40 
percent cheaper to operate.
    Question. Are you concerned that allocating funds to fourth 
generation fighters will prevent the Air Force from buying the number 
of F-35As needed to get a 50-percent fifth generation fleet in time to 
meet the threats from Russia and China? (OPR: AF/A8)
    Answer. We are committed to buying the F-35 in sufficient numbers 
to meet the fighter force mix we need for the missions we've been given 
in the National Defense Strategy. Funding for the F-15EX did not come 
from the F-35 portfolio, nor will it in the future, as these two 
aircraft are seen as complimentary, not competitive, in what they bring 
to the fight.
    Question. I commend the Air Force for making progress on reducing 
the overall pilot and maintainer staffing gaps, but there is still some 
work to be done. Last month GAO noted increasing loss rates of 
experienced maintainers, and recommended that the Air Force develop 
annual retention goals and a retention strategy for aircraft 
maintainers. Have you taken corrective action and implemented such a 
plan? (OPR: AF/A4)
    Answer. Our Aircraft Maintenance Career Field Managers continue to 
refine the Air Force Maintenance Retention strategy. Our goal is to 
have our strategy framework completed by August 30, 2019. Career Field 
Mangers are gathering current and historical retention data to conduct 
analysis, are partnering with experts within the Deputy Chief of Staff 
for Manpower, Personnel and Services, and have laid out goals and 
objectives to meet the August 30, 2019 delivery date
    Question. How can Congress assist the Air Force in addressing this 
problem, particularly with respect to the Air National Guard? (OPR: 
NGB)
    Answer. As referenced in Government Accountably Office's report, 
the Air National Guard (ANG) is experiencing a shortfall of assigned 
maintainers and deficiencies in required skill levels for those 
maintainers. The ANG requires increased military personnel funding to 
incentivize recruiting and retention of critical maintenance career 
fields and to provide adequate training days in order to expedite skill 
level qualifications for deploying maintainers.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
  whiteman air force base vehicle maintenance facility (opr: saf/a4c)
    Question. Secretary Wilson, I know you visited Whiteman very early 
on in your tenure.
    While there, you saw firsthand the problematic situation involving 
Whiteman's vehicle maintenance facility.
    The current aging 1950s era facility was originally designed for a 
fleet of 300 vehicles. The current fleet is over 650 vehicles. The 
facility needs a $24 million military construction project to meet 
safety standards and prevent workarounds in support of Whiteman's 
strategic mission.
    This is Whiteman's top military construction project request and is 
at the top of Air Force Global Strike Command's list as well.
    In response to a letter I sent you on the project, you commented 
that the Air Force had nearly 500 projects submitted by Air Force major 
commands. Yet, the Air Force was only able to fund a small number given 
difficult funding choices.
    Can you please discuss the demands, and balance necessary, to fund 
military construction projects to address the backlog of necessary 
investments in critical infrastructure in the Air Force?
    Answer. Most years, 75-80 percent of military construction 
resources support combatant commander requirements and new mission 
beddowns, leaving 20-25 percent for recapitalization of existing 
missions and facilities Air Force-wide. Informed by major command 
priorities, the Air Force prioritizes all enterprise-wide existing 
mission requirements for these scarce recapitalization military 
construction resources. In the last two decades, some budgets did not 
provide enough military construction funds for all major commands to 
fund even their top recapitalization priority. The Air Force maintains 
an unfunded priority list, which includes unfunded recapitalization 
requirements, so that we are postured to execute any additional 
appropriations if they become available. Our fiscal year 2020 military 
construction unfunded priority list includes the Consolidated Vehicle 
Operations and Maintenance Facility project at Whiteman Air Force Base.
    Given the limited percentage of military construction funds 
available annually for recapitalization, we intend to leverage Facility 
Sustainment, Restoration, and Modernization (FSRM) funds, along with 
recapitalization military construction, to address our backlog of 
deferred infrastructure maintenance. Going forward, robust FSRM 
budgets, coupled with new authorities to use FSRM instead of military 
construction for facility conversion, will allow major commands much 
needed flexibility to address their top priorities and will enable the 
Air Force to begin reducing our backlog of deferred maintenance.
                     air force we need (opr: af/a5)
    Question. Secretary Wilson, last year you announced an effort to 
get the Air Force to 386 squadrons in order to meet the intent of the 
National Defense Strategy.
    Can you provide us with an update on how the Air Force intends 
carry out that plan to increase capability, capacity, and readiness?
    Answer. The Air Force We Need growth from 312 to 386 operational 
squadrons is a strategy-driven, rather than budget constrained, 
analysis of what the Air Force requires to implement the National 
Defense Strategy. Our budget this year was driven by the National 
Defense Strategy and the prioritized missions set out in that strategy. 
In terms of readiness, we focused on building a more lethal and ready 
force--the Air Force is more ready for combat operations today than it 
was 2 years ago. We closed the gap on our maintainer shortage to 
address readiness shortfalls. In terms of capability and capacity, we 
are modernizing across the board with the F-35, the KC-46, the B-21 
bomber, the nuclear deterrent, the T-X trainer, and our helicopters. We 
have aligned our budget priorities to the priorities of the National 
Defense Strategy--and identified the need to grow to meet all of the 
mission sets with our Air Force We Need analysis.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    Question. I would like to know how your fiscal year 2020 request 
invests in sustainment research. Specifically, what level of funding is 
dedicated to sustainment research efforts and what programs or 
partnerships does the Air Force intend to pursue to modernize 
sustainment of your aircraft? (OPR: SAF/AQ)
    Answer. The fiscal year 2020 President's Budget Request includes 
$659 million (Fiscal Years 2020-2024) for the Air Force Research 
Laboratory (AFRL) science and technology research in sustainment 
technologies for aircraft and intercontinental ballistic missile 
systems. This involves approximately a dozen AFRL core technical areas 
and over 50 projects in partnership with various system program office, 
depot operations, and repair sites at Air Force bases. Key examples are 
Low Observability improvements for F-35, F-22, and B-2, new non-
destructive evaluation (NDE) for fighters and transport aircraft, 
advanced inspection processes and equipment for life extension, reduced 
costs of various turbine engines, and digital engineering and machine 
learning processes and tools for advanced Intercontinental Ballistic 
Missile health prognostics. The newly formed Rapid Sustainment Office 
leverages AFRL initiatives and transitions the new technologies into 
active sustainment activities to reduce sustainment cost and improve 
readiness.
    Question. I would like your perspective on two proposals stemming 
from OT&E's report to increase Cyber Red Teams capacity. The first 
proposal is to resource partnerships with academia to create a pipeline 
of cyber talent for Red Teams. The second proposal is to resource a 
Joint Cyber Red Team construct, for example, the 177th Information 
Warfare Aggressor Squadron at McConnell Air Force Base is an Air 
National Guard, NSA and USCYBERCOM-certified red team that already 
works hand-in-hand with the Army team based in Huntsville, and they 
should be resourced to collaborate on testing to meet demand. (OPR: AF/
A2/6)
    Answer. The Air Force is currently leveraging efforts like ``Hack 
the Air Force'' where the Air Force has partnered with HackerOne to not 
only uncover vulnerabilities in public facing websites, strengthening 
the service's cyber posture, but also potentially identifying, 
recruiting, or retaining cyber talent. Due to required elevated 
clearance levels to access DoD network systems, elevated tools and 
methods, the DoD is unable to fully partner with non-Federal agencies 
for pipelines to increase Cyber Red Team capacity. Often, the 
limitation on Cyber Red Team Capacity is the backlog of personnel 
awaiting completion of clearance investigations. Partnerships with 
Total Force aggressors would provide valuable additional capacity, and 
we would welcome their assistance, provided they were resourced and 
supported appropriately.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. Is the Air Force considering using RPAs for missile 
defense and wide area surveillance as part of efforts to combat future 
high-end adversaries? (OPR: AF/A2/6)
    Answer. The Air Force is not currently planning or programming to 
use RPAs for missile defense. The Missile Defense Agency has contracted 
MQ-9 and MQ-9B aircraft, which have been structurally modified with 
electro-optical/infra-red sensors in a nose turret, to assess the 
feasibility and utility of this capability. The Air Force is working 
with the Missile Defense Agency on potential warfighter concepts of 
operations if a decision was made to field this capability. If fielded, 
the Air Force favors use of a modular pod-based approach to minimize 
the impact to existing RPA aircraft, missions, and force structure.
    The Air Force's current RPA wide area surveillance capability is 
Gorgon Stare 2, which flies on a limited number of MQ-9 aircraft 
providing Wide Area Motion Imagery (WAMI) in permissive environments. 
Carrying a Gorgon Stare precludes carrying weapons. The Air Force 
studied Next Generation Sensors needed to combat future high-end 
adversaries and considered wide area surveillance concepts, but they 
were not prioritized for further development.
    Question. Is the Air Force considering increasing the total number 
of RPA combat lines in order to meet demands in the PACOM and EUCOM 
AOR? (OPR: AF/A2/6)
    Answer. The Air Force is programmed to support 60 MQ-9 combat lines 
(CLs) plus 10 Government Owned, Contractor Operated (GOCO) CLs. The Air 
Force is currently not considering increasing the total number of MQ-9 
CLs.
    Question. If a lack in personnel is the Department's biggest 
challenge in increasing RPA combat lines, what kind of advancements 
could be leveraged to address that challenge?
    Answer. The Air Force does not currently intend to increase the 
number of MQ-9 CLs. In addition to increasing personnel the Air Force 
would have to address current limitations on equipment, specifically 
Ground Control Stations (GCS), aircraft, and ground support equipment 
for Launch and Recovery locations.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. You testified that there was nothing in the Air Force's 
budget request for Military Construction that is not necessary for 
readiness. (OPR: AF/A4C)
    What is the specific impact on Air Force readiness if funding for 
Military Construction projects is reprogramed away from the Air Force?
    Answer. The Acting Secretary of Defense is considering the option 
of utilizing 10 USC 2808 authority to construct a barrier in support of 
the use of the armed forces in addressing the national emergency for 
which the armed forces are required. In the event Acting Secretary 
Shanahan utilizes this authority, the Air Force will work with the 
Office of the Secretary of Defense to ensure they are informed of the 
potential military readiness impacts regarding any Air Force projects 
that might be deferred.
    Question. What projects not included in the fiscal year 2020 budget 
submission would you accelerate or add if funding was available?
    Answer. If additional funding were to become available, we would 
seek military construction-related requirements, consistent with our 
fiscal year 2020 military construction unfunded priority list. Our 
first unfunded priority is $190 million to complete prior-year projects 
with known cost increases over their programmed amounts. Without 
additional funding, these projects will be delayed indefinitely, or 
other authorized and appropriated projects would need to be deferred to 
enable reprogramming.
    Our second unfunded priority is $63 million for additional Military 
Construction planning and design funds. Early design is one of the most 
important aspects of a healthy military construction program; cost 
estimating and budgeting will both improve if we have the resources to 
begin design as early as possible, with ready-to-execute designs on the 
shelf for future execution years.
    Our unfunded priority list also includes our next 10 highest 
priority projects that are ready to execute, but did not make it into 
the fiscal year 2020 President's Budget. These critical projects 
support Total Force requirements at bases across the United States:
  --Mechanized Material Handling System Allied Support--Travis AFB, 
        California
  --NC3 Support War Reserve Materiel Storage/Shipping Facility--
        Holloman AFB, New Mexico
  --SOCNORTH Theater Operational Support Facility--Peterson AFB, 
        Colorado
  --Consolidated Vehicle Operations and Maintenance Facility--Whiteman 
        AFB, Missouri
  --Air Force Personnel Center B-Wing--Joint Base San Antonio-Randolph
  --41st Rescue Squadron HH-60W Apron--Moody AFB, GA
  --Consolidate Prep School Dormitory--U.S. Air Force Academy, Colorado
  --Aerial Port Facility--Minneapolis-St. Paul International Airport, 
        Minnesota (Air Force Reserve)
  --Aeromedical Evacuation Squadron Training Administration Facility--
        Joint Base Andrews, Maryland (Air Force Reserve)
  --Fuels/Corrosion Control Hangar and Shops--Moffett Air National 
        Guard Base, California (Air National Guard)
    Question. What are the early estimates of the cost of damage to 
Offutt Air Force Base and other costs related to flooding?
    Answer. The early flood damage estimate for Offutt Air Force Base 
is $350 million in Operations and Maintenance costs. Cost estimates for 
construction and equipment are still in development.
    Question. You testified that the Air Force is partnering with 
universities like Norwich University in Northfield, Vermont, to grow 
cyber talent and recruit young people with proficiencies in computer 
languages. (OPR: SAF/CN)
    Will you provide more information about these partnership programs?
    Answer. The AF primarily partners with universities through Reserve 
Officer Training Corps (ROTC) programs. ROTC programs provide the AF an 
avenue to directly access officers with cyber talent. Often, ROTC 
programs will partner with Active, Guard, and Reserve units to connect 
cadets to operational Air Force missions. This is the case at Norwich 
University where the 229th Cyber Operations Squadron has established a 
relationship with the ROTC program, and other Norwich University 
programs, with an emphasis on cyber operations. The AF will access many 
officers directly into the 17D career field, cyberspace operations. To 
complement direct accessions into cyberspace operations, the AF is 
piloting a training program similar to the Language Enabled Airmen 
Program (LEAP) which provides Airmen, from all ranks and specialties, 
training opportunities to sustain and enhance their foreign language 
skills over the course of their service. Similarly, the AF is looking 
at providing sustainment and enhancement training opportunities to 
Airmen with computer language skills.
    Question. How will you coordinate those programs with existing 
cyber training and education programs?
    Answer. ROTC remains our primary partnership vehicle with 
universities to recruit cyber talent and young people with 
proficiencies in computer languages. In addition, the AF Computer 
Language Initiative (CLI) is aimed at uniting enterprise efforts to 
ensure that the AF has Airmen with the digital talent to face current 
and emerging challenges. The CLI brings together stakeholder 
representatives from across the AF to ensure that policy, training, 
tracking, and utilization efforts are synchronized. Finally, our 
success with software factories, in particular Kessel Run, provides a 
proven model for the AF to begin to normalize the process of 
identifying our Airmen with proficiencies in computer languages, 
providing additional training, then transitioning to an operational 
software development capability.
    Question. In the fiscal year 2020 President's Budget Request, the 
account for Overseas Contingency Operations is tripled to include 
funding over the budget cap. However, even when the so-called ``base-
to-OCO'' funding is removed, OCO remains close to level. (OPR: SAF/
FMBP)
    What plans exist for the Air Force to transfer enduring OCO costs 
to the base budget?
    Answer. The Air Force plans to move enduring Overseas Contingency 
Operations costs to the base budget, if directed or given guidance by 
the Office of Secretary Defense (OSD). Any movement of requirements 
from OCO to Base would need to include the funding being transferred as 
well. Without funds across the FYDP, The Air Force would have to divert 
funding from other efforts, such as readiness, to maintain the current 
level of operational support in the deployed AOR.
    Question. Are there cost savings to including enduring OCO costs in 
the base budget?
    Answer. There are potential cost savings; however, the real benefit 
is that it sends the right message to the industry. Our budgeting 
``strategy'' (base vs OCO) drives industry behavior for long term 
planning and internal investment strategies. Without funds in the FYDP, 
industry's appetite for making internal investments is reduced, which 
can later drive the AF to incur costs for production line capacity 
increases.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                 c-130 wildfire aircraft (opr: saf/aq)
    Question. In the 2019 National Defense Authorization Act, Congress 
directed the Air Force to modify and transfer seven C-130 aircraft 
currently operated by the Forest Service to California (Cal Fire) for 
use in wildfire suppression. Please provide the overall budget estimate 
and the current schedule for contract award, critical design review, 
delivery of the first aircraft, and final delivery of the seventh 
aircraft.
    Answer. The Air Force is committed to delivering seven C-130H 
aircraft to Cal Fire for wildfire suppression as directed by the fiscal 
year 2019 National Defense Authorization Act. Per the fiscal year 2019 
NDAA, the total program is capped at $150 million. Contract award, 
critical design review, delivery of the first aircraft, and final 
delivery of the seventh aircraft are projected for fourth quarter 
fiscal year 2019, third quarter fiscal year 2020, second quarter fiscal 
year 2021, and first quarter fiscal year 2022 respectively.
                   launch services agreement (saf/aq)
    Question. The Air Force announced Launch Services Agreement (LSA) 
awards to three companies in October 2018. The purpose of these awards 
was to ``to quickly transition from the use of non- allied space launch 
engines, implement sustainable competition for National Security Space 
(NSS) launch services, and maintain assured access to space.''
    A key program objective was to have certified launch vehicles ready 
to send critical national security satellites to space by April 2022. 
What is the current schedule toward certification for each of the three 
LSA award winners, and is the Air Force aware of further delays to the 
schedule announced in October 2018?
    Answer. The Launch Services Agreement (LSA) requires any LSA 
provider selected for a Phase 2 award to develop certified launch 
systems by the first National Security Space mission procured under 
Phase 2. The first Phase 2 launch is projected for 3rd Quarter fiscal 
year 2022. The launch providers are continuing to make sufficient 
progress towards this Initial Launch Capability. The specific schedules 
and milestones for each of the LSA providers is held as proprietary 
information.
    Question. The Air Force has stated that Phase 2 missions would be 
open to all bidders, including those not awarded under the LSA. What is 
the Air Force's plan to ensure fair and equitable competition among 
bids, given that some providers will be receiving hundreds of millions 
of dollars in government funds while others will not. Will the Air 
Force account for these government investments when evaluating the 
total costs to the government in Phase 2? If not, why not?
    Answer. The Air Force conducted a full and open competition for LSA 
awards and all bidders had an opportunity to be awarded. The Air Force 
has historically delineated separately awarded research and development 
funds from a procurement decision for concurrent development efforts, 
therefore, LSAs are considered to be an earned competitive advantage 
and these investments will not be included in the evaluation of the 
Phase 2 competition.
    Question. The Air Force's current Phase 2 strategy precludes any 
competition following the initial award in 2020 until at least 2027. 
How does this limitation to competition meet the Air Force's objective 
to establish ``sustainable competition for National Security Space 
launch services?''
    Answer. The Air Force assesses that the expected market in the 
2022-2026 timeframe will conservatively support only two providers. 
Working with two providers balances competition with National policy, 
which requires the DoD to maintain at least two paths to space for NSS 
satellites. In addition, awarding missions as a 5-year ``block buy'' 
provides the Air Force the ability to meet NSS requirements while 
ensuring market stability, lowering prices, and reinforcing commitment 
to industry. Following Phase 2, the Air Force plans to again compete 
and award NSS missions for launches starting in fiscal year 2025.
    Question. The Evolved Expendable Launch Vehicle (EELV) Program has 
struggled for years with extremely high, unsustainable launch costs, 
and a purpose of the LSA effort is to reduce the cost of launching 
National Security Space payloads. Given that, why does the current 
Phase 2 RFP rank price as functionally irrelevant?
    Answer. The Air Force has consistently worked to meet the more 
stressing National Security Space launch needs at lower cost. Launch 
service cost is important, but mission success and readiness will 
continue to be our most important factors of any source selection. By 
implementing this balance, the Air Force is expecting a successful 
Phase 2 competition where two commercial providers are selected that 
can affordably meet all NSS requirements.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. There have been reports about the Pentagon working with 
NASA to have the national standard for PFOS/PFOA levels be raised from 
70 ppt to 400 ppt for clean-up efforts and 1200 ppt for the emergency 
level.\1\ This effort is would free the Air Force from a responsibility 
to clean-up and assist contaminated people and lands in a great deal of 
areas. (OPR: SAF/IE)
---------------------------------------------------------------------------
    \1\ https://www.militarytimes.com/news/your-military/2019/03/15/
with-lawsuits-on-the-horizon-dod-looks-for-ways-to-cut-contaminated-
water-cleanup-costs/?utm_source=Sailthru&utm_
medium=email&utm_campaign=ebb%2018.03.19&utm_term=Editorial%20-
%20Early%20
Bird%20Brief.
---------------------------------------------------------------------------
    What efforts have been done to push for this raised standard and 
what are future plans that are in place to continue this effort?
    Answer. The Air Force recognizes PFOS/PFOA contamination is a 
national issue that needs a national regulatory solution. We support 
the Environmental Protection Agency establishing regulatory standards 
and a consistent cleanup approach for PFOS/PFOA based on the well-
established Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) process. We take our cleanup responsibilities 
seriously, and conduct our cleanups in an open and transparent manner 
following CERCLA. The Air Force and DoD are not seeking a different or 
weaker cleanup standard, but want the standard risk-based cleanup 
approach that is based on science and applies to everyone.
    Question. As Russia and China aggressively pursue hypersonic 
weapons capabilities, it is important that we ensure advancement of our 
own hypersonic technology. Last year General John Hyten, Commander of 
U.S. Strategic Command, told the Senate Armed Services Committee that, 
``We don't have any defense that could deny the employment of such a 
weapon against us.'' \2\ (OPR: SAF/AQ)
---------------------------------------------------------------------------
    \2\ https://www.cnbc.com/2018/03/21/hypersonic-weapons-what-they-
are-and-why-us-cant-defend-against-them.html.
---------------------------------------------------------------------------
    To develop hypersonic technology and possible counters, inland 
tests will need to be conducted. Is the Air Force coordinating with 
White Sands Missile Range to conduct the needed testing?
    Answer. The Air Force reaches out to the various test ranges, 
including White Sands Missile Range, for its hypersonics-related 
science and technology and prototyping efforts. Each range has 
different attributes: over land, over water, data rates, risks, 
distances over which the testing can be conducted, etc. Test range 
selection is based on test requirements and range availability. The Air 
Force coordinates with White Sands Missile Range during the 
requirements process for supporting hypersonic testing. The Program 
Office for the Air Force's Air-launch Rapid Response Weapon (ARRW) 
prototyping effort plans to run some ground global positioning system 
(GPS) performance testing at White Sands Missile Range. The ARRW 
Program Office is also planning to perform sled testing at the Holloman 
Air Force Base High Speed Test Track. The Air Force did participate in 
initial discussions about overland hypersonic testing. However, it was 
determined that White Sands Missile Range is too small for overland 
hypersonic weapon testing. As such, the Air Force has no current plans 
to accomplish hypersonic over land testing at White Sands.
    Question. Can you update my office on Air Mobility Command's 
efforts to utilize hypersonic point to point travel? What are the plans 
to make this a reality and has the Air Force begun the interagency 
efforts to conduct overland hypersonic tests?
    Answer. The Air Force Research Laboratory, along with the major 
commands and the Air Force Warfighting Integration Capability, explore 
various concepts in simulations and wargames to assess if and how well 
they meet mission requirements or otherwise positively impact the 
future of warfighting. Currently, Air Mobility Command has no plans to 
invest in hypersonic point-to-point delivery.
    Question. Secretary Wilson, in 2017, you submitted a detailed plan 
how the military's space force would transition to a new branch. In 
this report, you suggest the Space Development Agency be assigned to 
the Air Force Space Rapid Capabilities Office. The Space Development 
Agency would evolve to a ``hybrid'' organization with elements of the 
RCO and National Reconnaissance Office. The RCO, you noted, ``exists 
now and has the personnel and expertise to meet the needs of U.S. Space 
Command.'' (OPR: SAF/SP)
    I agree with your statement, and would like to know what role the 
Air Force Space Rapid Capabilities Office would play in the 
administration's most recent legislative proposal to establish the 
Space Force?
    Answer. The Air Force Space Rapid Capabilities Office is not 
addressed in the administration's legislative proposal to establish the 
Space Force. However, if a Space Force is approved by congress, the 
Department of Defense intends to transfer all space acquisition 
organizations to the Space Force.
    Question. Please update me on the Space Development Agency (SDA) 
and the metrics the Air Force is considering for locating this 
important office. Do you agree that the SDA would benefit from being 
co-located with the Space RCO? Please provide any reasons why or why 
not?
    Answer. The Air Force is not involved in the process to determine 
the location of the Space Development Agency. On March 12th the Acting 
Secretary of Defense established the agency under the authority, 
direction, and control of the Under Secretary of Defense for Research 
and Engineering. The agency is currently located in the Washington, 
D.C. area. In a 14 September memo, the Air Force proposed ``assigning 
the function'' of the Space Development Agency to the Space Rapid 
Capabilities Office. The Air Force recommended this action because the 
Space Rapid Capabilities Office exists now, has special authorities 
granted by Congress, and has the personnel and expertise to develop the 
capabilities needed by U.S. Space Command.
    Question. You reportedly wrote a memo to Defense Secretary Shanahan 
recommending that the SDA be co-located with the Space RCO. Can you 
please provide a copy of the memo to the committee for review?
    Answer. Yes. Please find the memo, the Air Force concept for the 
Space Development Agency, and other relevant correspondence enclosed.
    Question. I wanted to quickly address Holloman's important role 
addressing the pilot shortage to help the Air Force meet its F-16 
mission. The New Mexico delegation has inquired with you and your 
office several times, but I want to reiterate our position that the Air 
force should move quickly to make the F-16 basing permanent at 
Holloman. Do you have any updates on this decision? (OPR: SAF/IE)
    Answer. The basing process for the F-16 permanent Formal Training 
Unit continues. We anticipate the Secretary of the Air Force to select 
candidate bases this summer. Following the site surveys, the Secretary 
of the Air Force will make the preferred and reasonable alternatives 
decision in the winter of 2019/2020. After the required environmental 
analysis is complete, the Secretary of the Air Force will render the 
final decision, anticipated in the winter of 2021/2022.
    Question. Do you still agree that permanent basing will help the 
Air Force manage its historical training requirements for pilots? (OPR: 
AF/A3)
    Answer. ACTF--Pilot production, to include seasoning, depends on 
the proper distribution of aircraft and Instructor Pilots between the 
Formal Training Unit (FTU) and line squadrons. As we work to set 
targets to meet operational requirements, we need to ensure we have the 
right balance of aircraft and Instructor Pilots in the operational 
units to receive and season the FTU graduates. This work is on-going.
    Question. The New Mexico Air National Guard performs important 
work, including providing critical training to Special Operations 
aircrews and supporting missions throughout the world. However, the 
TACOS do not have a flying mission. (OPR: NGB)
    Has the Air Force made any decision to assign a flying mission to 
the New Mexico Air National Guard?
    Answer. No decision has been made concerning a unit-equipped flying 
mission for the New Mexico Air National Guard (NM ANG). Current NM ANG 
contributions to Air Force Special Operations Command (AFSOC), Air 
Combat Command (ACC) and Air Education and Training Command (AETC) fill 
vital Service requirements. We acknowledge New Mexico's strong desire 
for an operational flying mission with unit- equipped aircraft and the 
Air Force will continue to evaluate future opportunities for the state.
    Question. Multiple platforms have been considered for the flying 
mission at the ANG. Among these are HH 60's, the light attack aircraft, 
and CV-22's. Will the Air Force commit to assigning one of these 
proposed aircraft or another to New Mexico's ANG?
    Answer. The HH-60, light attack aircraft (LAA) and CV-22 are all 
potential candidates for assignment to the NM ANG, but there is no 
existing or planned additional force structure available to support a 
commitment on assigning a flying mission to the New Mexico ANG at this 
time. An opportunity may arise in the future as we build towards the 
Air Force We Need and grow our total number squadrons. If we do grow, 
we will utilize our Strategic Basing Process to evaluate candidate 
locations and arrive at a decision on where that will occur.
    Question. Following the Air Force LSA announcement, each of the 
three selected providers announced a 1 year schedule delay. Was the Air 
Force aware of this schedule delay when it made its award decision, and 
if so how did this impact the Air Force's decision? (OPR: SAF/AQ)
    Answer. The Air Force comprehensively reviewed the launch service 
providers' schedules proposed under the Launch Services Agreement (LSA) 
solicitation. The launch providers have not adjusted their LSA 
completion schedules as proposed and awarded. All LSA providers are 
expected to be able to support the Phase 2 launch dates.
    Question. Please describe how the Air Force plans to pursue its 
Phase 2 procurement for the LSA and whether total costs to the 
government will be considered for the award? (OPR: SAF/AQ)
    Answer. The Phase 2 procurement will be a full and open competition 
separate from the LSA development efforts. Several draft solicitations 
have been released for industry comment and the final Request for 
Proposal is forthcoming. Additionally, the Air Force conducted a full 
and open competition for LSA awards and all bidders had an opportunity 
to be awarded the contract. The Air Force has historically delineated 
separately-awarded research and development funds from a procurement 
decision for concurrent development efforts, therefore, LSAs are 
considered to be an earned competitive advantage and these investments 
will not be included in the evaluation of the Phase 2 competition.
    Question. Have you, anyone on your staff, or anyone within the Air 
Force participated in war planning for a potential war and/or attack in 
Iran or its military? (OPR: AF/A5)
    Answer. The Air Force by statute is responsible for fulfilling the 
future operational requirements of the unified and specified combatant 
commands as well as for preparation of the air forces necessary for the 
effective prosecution of war. To meet these responsibilities as a 
Service, the Air Force organizes, trains, and equips its forces to 
conduct prompt and sustained offensive and defensive air operations 
across a range of contingencies. Specific war planning for any 
particular region is the responsibility of combatant commands. This 
question is best answered in a different setting, and as a Service we 
would only be able to talk about theoretical planning scenarios not 
actual war plans.
    Question. Have you, anyone on your staff, or anyone within the Air 
Force participated in war planning for a potential war and/or attack in 
Venezuela or against the Maduro regime? (OPR: AF/A5)
    Answer. The Air Force by statute is responsible for fulfilling the 
future operational requirements of the unified and specified combatant 
commands as well as for preparation of the air forces necessary for the 
effective prosecution of war. To meet these responsibilities as a 
Service, the Air Force organizes, trains, and equips its forces to 
conduct prompt and sustained offensive and defensive air operations 
across a range of contingencies. Specific war planning for any 
particular region is the responsibility of combatant commands. This 
question is best answered in a different setting, and as a Service we 
would only be able to talk about theoretical planning scenarios not 
actual war plans.
    Question. Would a war with Iran hinder the Air Force's ability to 
prepare for near peer competition with China and Russia as outlined by 
numerous defense policy documents? Has the Air Force completed any 
estimates regarding what a war with Iran would cost in terms of 
dollars, equipment, and lives? If so, please provide that analysis. 
(OPR: AF/A5)
    Answer. Logically, any military action against one nation has an 
impact on capacity to prepare or engage in competition with another 
nation. We have seen this over the past two decades, with our continual 
engagement in the Middle East, and its impact on our full-spectrum 
readiness. Any estimated regarding detailed consequences we have 
discovered in scenario planning would need to be provided in a 
classified setting.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. After Hurricane Michael, the Air Force moved F-22s from 
Tyndall Air Force Base to other squadrons across the country, including 
the 199th Fighter Squadron at Joint Base Pearl Harbor-Hickam. (OPR: 
SAF/IE)
    Has the Air Force made a decision about basing F-22s back at 
Tyndall?
    Answer. Yes, the Air Force is using its strategic basing process to 
determine the locations to meet the recommendations of the Government 
Accountability Office report on F-22 organization and utilization 
changes that could improve aircraft availability and pilot training. 
The Secretary of the Air Force directed a study to assess the 
feasibility of basing up to three F-35A squadrons at Tyndall. We 
anticipate a Secretary of the Air Force preferred alternative decision 
for the F-35 and F-22 this summer.
    Question. Have you made recommendations about making any of the 
temporary F-22 moves permanent?
    Answer. Yes, the Air Force is using its strategic basing process to 
determine the locations to meet the recommendations of the Government 
Accountability Office report on F-22 organization and utilization 
changes that could improve aircraft availability and pilot training. We 
anticipate a Secretary of the Air Force preferred alternative decision 
this summer.
    Question. Last summer, GAO issued a report that said increasing the 
number of aircraft with the 199th Fighter Squadron would generate more 
sorties and improve maintenance performance. (OPR: AF/A8)
    Regardless of the basing decision for Tyndall, will you commit to 
keeping the 199th Fighter Squadron its current size of 24 primary 
aircraft?
    Answer. As the basing decision is being finalized, many factors 
across fighter platforms are still being considered that do not allow 
the USAF to fully commit to keeping the 199th Fighter Squadron at its 
current size into the future. The end goal is to position aircraft 
appropriately to meet the needs of the joint force and capitalize on 
efficiencies where able.
    Question. Will you work with me to get training aircraft to Hawaii 
to provide an adversary air capability so we can free up F-22s that are 
currently playing that role?
    Answer. We look forward to working with you and your staff to 
discuss the adversary air enterprise.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
   f-35 ops 5 & 6 draft environmental impact statement (opr: saf/ie)
    Question. As you know, the 115th Fighter Wing at Truax Air National 
Guard Base was selected in 2017 through the Ops 5 basing process to be 
the next ANG unit to perform the F-35A Joint Strike Fighter mission. 
Can you please provide me with a detailed outline as to where the 
process currently stands and when you expect the release of a Draft 
Environmental Impact Statement (EIS) and public comment hearing as well 
as the impact of this timing on the planned bed-down schedule for Ops 5 
& 6?
    Answer. The Air Force is accomplishing the environmental analysis. 
The Secretary of the Air Force will render a final decision once 
informed of the potential environmental impacts of the proposed action. 
We anticipate release of the draft Environmental Impact Statement late 
this summer, with public hearings scheduled within 30 days of the 
release of the document. This timeline does not affect the planned bed 
down schedule, nor first aircraft arriving at Ops 5 in April 2023 and 
in December 2023 at Ops 6.
                        pfos/pfoa (opr: saf/gc)
    Question. (a) In the Department's view, which entity has the legal 
responsibility for environmental and human health impacts, and related 
cleanup and mitigation costs, related to the use of PFOS/PFOA for 
crash, fire & rescue training and services at any non-USG, fee-owned 
installations?
    (b) A site which: is a NG site for which the DoD has some 
contractual relationship with an Airport authority as a tenant, and 
that agreement includes specifies requirements for training and 
operations (such as Crash, Fire & Rescue), which is later to be found 
to have contamination resulting from those requirements:
  --What is DoD's role when the contamination is classified as 
        requiring cleanup under Federal superfund laws?
  --What is DoD's role when the contamination is classified at the 
        Federal level as caused by emerging contaminants of concern, 
        and which does not have a Federal regulatory standard, but 
        which is subject to a regulatory cleanup standard at the State 
        level?
    Answer. Generally. In general, the Air National Guard would 
implement any necessary environmental response actions to address 
contamination attributable to the Air National Guard, utilizing 
authorities under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA).
    In the case of environmental releases of PFOS/PFOA attributable to 
the Air National Guard, the Air Force by policy acts to meet the US 
Environmental Protection Agency's Lifetime Health Advisory of 70 ppt 
for PFOS/PFOA concentrations in drinking water. Where PFOS/PFOA 
drinking water concentrations exceed 70 ppt, we immediately provide 
alternate drinking water and implement long-term measures to ensure 
safe drinking water.
    The Air Force also investigates the source of PFOS/PFOA releases 
and the extent of contamination. Following the risk-based CERCLA 
process, Air Force would then conduct any response action that is 
necessary to protect human health and the environment.
    In the case of environmental releases of contaminants for which 
there is a Federal standard, the Air Force would comply with that 
standard. Where a State has properly promulgated and implemented a 
standard that is more stringent than the Federal standard and such 
standard either directly applies to the United States Government or 
would constitute an Applicable or Relevant and Appropriate Requirement 
under CERCLA, Air Force would comply with the State standard.
    Extinguishing Fires on Aircraft Located on Civilian Airports. Where 
there is an environmental need to respond to PFOS/PFOA releases that 
are caused by Air National Guard use of fire-fighting foam to address 
fires located at civilian airports that result from non-Air National 
Guard operations, the responsibility for implementing or paying for the 
environmental response may depend either on agreement language or on 
the particular facts of the situation. For example, where an agreement 
between the Air National Guard and the civilian airport, e.g., a 
``Joint Use Agreement,'' identifies which party is responsible for 
funding environmental response actions, the agreement would control. In 
the absence of such an agreement allocating this responsibility, 
responsibility for funding such response action may depend on the 
entity whose fire caused the need for extinguishing action that 
released PFOS/PFOA.
    Question. Please provide a summary of USAF RDTE investments 
designed to reduce the cost space access and space launch.
    Answer. The Air Force is executing a strategy through the National 
Security Space Launch program to ensure affordable access to space by 
investing in next generation rocket propulsion and launch systems. 
Successful development under the rocket propulsion partnerships led to 
the next generation of rocket engine prototypes. These engine 
prototypes are being leveraged to support the development of new 
domestically-produced launch systems to meet all National Security 
Space requirements while ending reliance on foreign rocket engines. 
Through these partnerships, the Air Force has invested over $2 billion 
to ensure there are viable and affordable domestic launch capabilities. 
For the first time in 20 years, the Air Force will be able to meet all 
national security launch needs through competition among multiple 
launch providers, assuring continued access to space.
    Question. What investments is the Air Force making to advance Stage 
2 engine technology?
    Answer. The Air Force is investing in the modernization of the RL10 
Liquid Oxygen-Hydrogen upper stage engine built by Aerojet Rocketdyne 
and used since the 1960s. Current variations are used on the United 
Launch Alliance Centaur second stage, flown on Atlas V and Delta IV 
rockets. The Air Force and Aerojet Rocketdyne are co-investing in 
developing the next- generation RL10CX engine. The RL10CX replaces many 
heritage parts and processes dating to the Apollo era, with additive 
manufacturing, which reduces fabrication time and costs 30-50 percent 
less. RL10CX is compatible with launch vehicles using RL10C engines, 
including Northrop Grumman's OmegA and United Launch Alliance's Vulcan.
    Question. What is the budget in the POM and over the FYDP for Air 
Force Research Laboratory (AFRL) sponsored work on rocket propulsion, 
specifically upper stage engine maturation?
    Answer. The Air Force fiscal year 2020 President's Budget for an 
upper stage engine rocket motor concept is $17.4 million. The Future 
Years Defense Program funding across fiscal years 2020 to 2024 totals 
$105.1 million for these efforts.
                                 ______
                                 
            Questions Submitted to General David L. Goldfein
                Questions Submitted by Senator Roy Blunt
                  rosecrans c-130 issues (opr: af/a8)
    Question. The 139th Airlift Wing at Rosecrans Air National Guard 
Base provides critical C-130 training through its Advanced Airlift 
Tactics Training Center (AATTC) and Weapon Instructor Course (WIC).
    The AATTC provides academic and combat flying training tactics to 
the active duty Air Force, National Guard, Air Force Reserve, and 
nearly 20 allied nations.
    The WIC increases pilot's combat capabilities and ensures they stay 
current in their training in order to effectively engage in a joint 
environment.
    In the past, funding has not been explicitly programmed in the 
budget. Instead, it was done on an ad hoc, yearly basis that caused 
stress for the 139th. However, thanks to this committee working with 
the Air Force and National Guard over the last several years, this 
issue appears to be resolved. So thank you for your efforts in that 
area.
    General Goldfein, related to Rosecrans and C-130 issues, in 
September 2018, I sent a letter to the Chief of the National Guard 
Bureau, General Jospeh Lengyel. I copied you on that letter.
    The letter raised concerns over the decision to temporarily reduce 
the Primary Aircraft Assigned (PAA) for Air National Guard C-130 units 
from eight to seven.
    I understand the temporary reduction is meant to help the Air 
National Guard address readiness maintenance issues.
    While I am supportive of the effort to address readiness issues, I 
want to ensure that seven PAA does not become permanent.
    Can you please discuss how you plan to work with the National Guard 
on a plan to return to eight PAA as quickly as possible?
    Answer. Based on fiscal year 2020 Presidents Budget (PB) 
submissions, the 139 AW's current fleet of 7x Primary Mission Assigned 
Inventory (PMAI) C-130Hs will not increase to 8. The fiscal year 2019 
PB adjusted the unit's PMAI from 8 to 7 in an effort to reach the Air 
Force directed goal of 10 percent fleet-wide Backup Aircraft Inventory 
(BAI). Currently, the 139 AW has a total of 7 PMAI and 2 BAI. This BAI 
increase improved AF readiness by allowing for increased maintainer-to-
aircraft ratio and facilitating modernization efforts while improving 
C-130H mission capable rates. For the Air National Guard in particular, 
the decrease from 8x PAI to 7x PAI did not drive a decrease in 
manpower.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. I think we can both agree that the Airmen and women who 
serve in our Air Force are the Department's most important asset. When 
our servicemembers and their families face adversity and do not seek 
help, the readiness and lethality of our Air Force is degraded. Task 
Force True North (TFTN) is a pilot program currently taking place at 
four bases around the country--including Minot Air Force Base in North 
Dakota--that focuses on enhancing well- being, increasing resilience, 
preventing detrimental outcomes such as suicide, sexual assault, 
domestic violence and substance abuse, and optimizing human 
performance. One unique initiative within the TFTN pilot program 
involves embedding four licensed clinical social workers and one mental 
health technician at the unit or squadron level. (OPR: AF/A1)
    What do you see as the greatest challenge to expanding this type of 
pilot program Department-wide?
    Answer. We see the greatest challenge to be the availability and 
recruitment of enough professionals to meet the program demand for 
embedded providers.
    Question. Are there specific areas where additional funding is 
needed to ensure our Airmen and women have these types of programs in 
place?
    Answer. Yes. We have identified three areas where additional 
funding is essential to success: manpower dollars, contractor dollars 
and sustainment/operating dollars. We are in the process of defining 
the required amounts through the AF's budget process.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. The Vermont Air National Guard is due to receive the 
first of its F-35A Lightning II aircraft this fall. This aircraft is 
being fielded concurrently in the Air National Guard and the active 
duty Air Force, unlike previous fighter aircraft. This means there are 
few experienced active duty pilots, maintainers, and other personnel to 
join the 158th Fighter Wing than under existing Air Force Air National 
Guard unit transition models. (OPR: NGB)
    How have you developed budgeting models for Military Personnel and 
Operations and Maintenance costs for fiscal year 2019 and beyond for 
the transition?
    Answer. A funding baseline for Military Personnel and Operations 
and Maintenance costs for the F-35 was established using funding from 
the existing F-16 mission. The ANG has further refined the resourcing 
requirements through a series Site Activation Task Force (SATAF) on-
site visits and monthly conversion reports from the unit. One variance 
we've already discovered in this initial conversion is the concurrent 
seasoning of ANG maintenance personnel, which required an additional 
$3.3M this year. We expect to continually refine the budget throughout 
the unit's 3-year conversion period and a manpower study will also be 
conducted within 2 years of the unit achieving full operational 
capability so that we can validate the assumptions and adjustments 
we've made up until that point.
    Question. Will you share a detailed table outlining those estimates 
over the next five fiscal years?
    Answer. The initial F-35 Operations and Maintenance (O&M) and 
Military Personnel (MILPERS) requirements for the 158 FW are satisfied 
in the fiscal year 2020 budget; the breakout is shown in the table 
below. Data for fiscal year 2021 and beyond is pre-decisional and will 
be made available once the Service's budget is finalized each year.

                            Fiscal Year 2020
                             [$ in millions]
------------------------------------------------------------------------
                                       Requirement         Programmed
------------------------------------------------------------------------
Operations and Maintenance (O&M)
    Flying Hours..................               3260               3260
    Weapons System Sustainment....             $105.3             $105.3
Manpower..........................             Mil/FT             Mil/FT
                                              595/189            619/188
------------------------------------------------------------------------

    Question. Will you report to the Committee over the course of the 
transition with updated cost estimates in order to ensure the success 
of and successful budgeting for the F-35A transitions and future 
concurrent fielding?
    Answer. The Air Force is actively documenting the experiences and 
lessons learned during this early stage of F-35 fielding into the Total 
Force and we look forward to providing the Committee with updates as we 
move forward.

                          SUBCOMMITTEE RECESS

    Senator Murkowski. The Defense committee will reconvene on 
Wednesday, March 27th at 10:00 a.m. to receive testimony from 
the Army. And until then, the subcommittee will stand in 
recess. Thank you both very, very much.
    [Whereupon, at 11:52 a.m., Wednesday, March 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
